<html>
<title> - H.R. 250, H.R. 382, H.R. 432, H.R. 758, H.R. 1512, H.R. 1434, H.R. 1439, H.R. 1459, AND H.R. 885</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  H.R. 250, H.R. 382, H.R. 432, H.R. 758, H.R. 1512, H.R. 1434, H.R. 
                     1439, H.R. 1459, AND H.R. 885 

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Tuesday, April 16, 2013

                               __________

                           Serial No. 113-11

                               __________

       Printed for the use of the Committee on Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

80-524 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Niki Tsongas, MA
Doug Lamborn, CO                     Rush Holt, NJ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Scott R. Tipton, CO                  Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 Colleen W. Hanabusa, HI
Mark E. Amodei, NV                   Steven A. Horsford, NV
Chris Stewart, UT                    Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio



                                ----------                           
                                 CONTENTS
                                ----------                              
                                                                   Page

Hearing held on Tuesday, April 16, 2013..........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
        Prepared statement of....................................     8
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     9
        Prepared statement of....................................    10

Statement of Witnesses:
    Carney, Hon. John C., Jr., a Representative in Congress from 
      the State of Delaware, Statement of........................    19
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah, Statement of................................    16
    Daines, Hon. Steve, a Representative in Congress from the 
      State of Montana, Statement of.............................    29
    Doggett, Hon. Lloyd, a Representative in Congress from the 
      State of Texas, Statement of...............................    17
    Eliason, David, Secretary/Treasurer, Public Lands Council, 
      Utah Cattlemen's Association...............................    35
        Prepared statement of....................................    37
        Questions submitted for the record.......................    39
    Foxx, Hon. Virginia, a Representative in Congress from the 
      State of North Carolina....................................    12
        Prepared statement of....................................    14
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................    24
        Prepared statement of....................................    25
    Jones, John, Commissioner, Carbon County, Utah...............    31
        Prepared statement of....................................    34
        Question submitted for the record........................    35
    Labrador, Hon. Raul R., a Representative in Congress from the 
      State of Idaho.............................................    26
        Prepared statement of....................................    27
    Scott, Hon. Robert C., ``Bobby'', a Representative in 
      Congress from the State of Virginia, Statement of..........    21
    Stewart, Hon. Chris, a Representative in Congress from the 
      State of Utah, Statement of................................    27
    Ward, Hon. Molly Joseph, Mayor, City of Hampton, Virginia....    40
        Prepared statement of....................................    42

Additional materials submitted for the record:
    Cartwright, Hon. Matt, a Representative in Congress from the 
      State of Pennsylvania, Prepared statement of...............    59
    Gallego, Hon. Pete P., a Representative in Congress from the 
      State of Texas, Prepared statement of......................    60
    Hansen, Hon. James V., a U.S. Representative from Utah; and 
      Chairman, Subcommittee on National Parks and Public Lands, 
      Hearing Serial No. 105-20, Statement of....................     5
    List of documents retained in the Committee's official files.    64
    National Association for the Advancement of Colored People 
      (NAACP), Letter submitted for the record...................    23
    Representatives of National Motorized Recreational 
      Organizations, Letter submitted for the record, on H.R. 382    15
    U.S. Department of the Interior, Statement submitted for the 
      record on the Antiquities Act..............................    61
    U.S. Department of the Interior, Statement submitted for the 
      record, on H.R. 885........................................    62
    Yates, Ryan R., Associate Legislative Director, National 
      Association of Counties, Prepared statement of.............    31
                                     

LEGISLATIVE HEARING ON H.R. 250, TO AMEND THE ANTIQUITIES ACT 
OF 1906 TO PLACE ADDITIONAL REQUIREMENTS ON THE ESTABLISHMENT 
OF NATIONAL MONUMENTS UNDER THAT ACT, AND FOR OTHER PURPOSES; 
H.R. 382, TO PROVIDE FOR STATE APPROVAL OF NATIONAL MONUMENTS, 
AND FOR OTHER PURPOSES. ``PRESERVE LAND FREEDOM FOR AMERICANS 
ACT''; H.R. 432, TO PROHIBIT THE FURTHER EXTENSION OR 
ESTABLISHMENT OF NATIONAL MONUMENTS IN NEVADA EXCEPT BY EXPRESS 
AUTHORIZATION OF CONGRESS; H.R. 758, TO PROHIBIT THE FURTHER 
EXTENSION OR ESTABLISHMENT OF NATIONAL MONUMENTS IN UTAH EXCEPT 
BY EXPRESS AUTHORIZATION OF CONGRESS. ``UTAH LAND SOVEREIGNTY 
ACT''; H.R. 1512, TO PROHIBIT THE FURTHER EXTENSION OR 
ESTABLISHMENT OF NATIONAL MONUMENTS IN NEW MEXICO EXCEPT BY 
EXPRESS AUTHORIZATION OF CONGRESS. ``NEW MEXICO LAND 
SOVEREIGNTY ACT''; H.R. 1434, TO PROHIBIT THE FURTHER EXTENSION 
OR ESTABLISHMENT OF NATIONAL MONUMENTS IN MONTANA, EXCEPT BY 
EXPRESS AUTHORIZATION OF CONGRESS, AND FOR OTHER PURPOSES. 
``MONTANA LAND SOVEREIGNTY ACT''; H.R. 1439, TO PROHIBIT THE 
FURTHER EXTENSION OR ESTABLISHMENT OF NATIONAL MONUMENTS IN 
IDAHO, EXCEPT BY EXPRESS AUTHORIZATION OF CONGRESS. ``IDAHO 
LAND SOVEREIGNTY ACT''; H.R. 1459, TO ENSURE THAT THE NATIONAL 
ENVIRONMENTAL POLICY ACT OF 1969 APPLIES TO THE DECLARATION OF 
NATIONAL MONUMENTS, AND FOR OTHER PURPOSES. ``ENSURING PUBLIC 
INVOLVEMENT IN THE CREATION OF NATIONAL MONUMENTS ACT''; AND 
H.R. 885, TO EXPAND THE BOUNDARY OF SAN ANTONIO MISSIONS 
NATIONAL HISTORICAL PARK, TO CONDUCT A STUDY OF POTENTIAL LAND 
ACQUISITIONS, AND FOR OTHER PURPOSES. ``SAN ANTONIO MISSIONS 
NATIONAL HISTORICAL PARK BOUNDARY EXPANSION ACT OF 2013''
                              ----------                              


                        Tuesday, April 16, 2013

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:13 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, McClintock, Lummis, 
Labrador, Stewart, Daines, LaMalfa, Grijalva, DeFazio, Holt, 
Sablan, Garcia, and Cartwright.
    Mr. Bishop. Thank you all for hearing that gavel--it just 
banged--the Subcommittee will come to order. The Chairman notes 
the presence of a quorum. The Subcommittee on Public Lands and 
Environmental Regulation is meeting today to hear testimony on 
a number of pieces of legislation. Our Subcommittee is meeting 
today on testimony for some legislation that will be H.R. 250, 
H.R. 382, H.R. 432, H.R. 758, H.R. 1512, H.R. 1434, H.R. 1439, 
H.R. 1459, and H.R. 885. And this, I promise you, is not going 
to be another 5-hour hearing.
    Under the Committee Rules, opening statements are limited 
to the Chairman and Ranking Member of the Subcommittee. 
However, I ask unanimous consent to include any other Members' 
opening statement in the hearing record, if submitted to the 
clerk by the close of business today.
    [No response.]
    Mr. Bishop. Hearing no objection, that will be so ordered.
    At this time I also ask unanimous consent that any Member 
who wishes to participate in today's hearing, including those 
Members testifying on their bills, may be allowed to 
participate from the dais.
    [No response.]
    Mr. Bishop. And, without objection, also so ordered.
    I appreciate all of you being here. In an effort to try and 
speed this process along, I ask for your patience if, in my 
opening statement, I also make a reference to my particular 
bill that is on this docket, so that I don't have to do that a 
second time when we start with the hearing from those Members 
here in front of me.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. So, let me just simply say today we are going 
to hear testimony on a number of bills that would reform the 
Antiquities Act. And I am pleased all of you are here to do 
that. This, obviously, is an instrument used by Presidents to 
unilaterally create national monuments. Established in 1906, 
the Antiquities Act authorized the President to proclaim 
national monuments on Federal land. That was in an era where 
there were very few environmental laws, unlike today, where the 
listing of environmental protection laws would take several 
pages to include.
    While it was created to quickly protect historical 
landmarks and structures and other objects of scientific 
interest, the Act has been used to designate tracks of land 
well beyond, as the Act states, ``the smallest area compatible 
with the proper care and management of the objects to be 
protected.''
    In fact, the Antiquities Act, to be properly used, has to 
do three things: it has to specify something that needs 
protection; number two, it has to show where there is danger to 
that; and, number three, it has to be in the smallest area 
practical, which, as they were debating on the Floor, was 
supposed to be around 100 to 200 acres.
    Since its inception, the Presidents have proclaimed a total 
of 137 monuments. Recently last month President Obama created 
five more. While some of these have received little or no 
opposition--in fact, some of these were actually passed as 
measures in the House, and the Senate did not. So, to save the 
Senate from getting a reputation of being feckless, the 
President did it instead. Some of them have been, to say the 
least, somewhat controversial.
    We need to ensure that the interests and livelihood of all 
residents and stakeholders are considered and protected and 
land designations, especially large tracks of land, should be 
initiated at the local level, not out of pressure from 
Washington, and definitely not unilaterally.
    Presidential authority under the Antiquities Act has been 
modified in the past. First, in 1943, following a proclamation 
of the Jackson Hole National Monument, a law was passed that 
mandated Congress consent for any future monuments created in 
the State of Wyoming--you lucky people.
    Second, following a controversial decision in Alaska by 
President Carter, in 1978 Congress again passed a law that 
required congressional approval for any land withdrawn in 
Alaska greater than 5,000 acres. Those two States get it so 
far.
    I watched President Carter once on a CSPAN interview as he 
was talking about his designation in Alaska, in which he first 
smiled as only he can do, and then said he knew his decision 
was unpopular, and it was opposed by the people of Alaska, but 
he had the power to do it anyway, and he was going to do it. I 
love representative democracy in action.
    So, following the Wyoming and Alaska models, we will have 
bills to be introduced today to bring to the Western States, 
other Western States, to make them on par with those two 
States.
    Monument designations must be constrained in size, solely 
limited to contiguous lands that are already owned by the 
Federal Government. Private property inholdings should be 
excluded. They should be limited to the sites that clearly 
contain those historical landmarks or objects of historic or 
scientific interest. Monument designation should not be used as 
a back door maneuver to lock up lands for general purposes that 
deny public access for recreation and job creation.
    Designation should be limited to areas that are clearly--
that face clearly articulated imminent threats. The simplistic 
generalization that any potential commercial use is a threat is 
neither correct nor adequate justification for this kind of 
peremptory act.
    If I could have your indulgence, let me talk about my 
particular bill, and then I won't have to interrupt the panel 
that is there.
    As you might see from today's setting, the Utah 
Delegation's participation today, the sponsorship of the 
Antiquities Act and reform to the Antiquities Act is very 
significant to the State of Utah, where there is a widespread 
feeling that our State was dealt a great injustice, or screwed, 
by President Clinton when he created the Grand Staircase-
Escalante Monument. This monument proclamation violated both 
the letter and the spirit, and purposely locked up an abundance 
of domestic NG resources that hurt our national security and 
limited the local activity. To this day, no one has been able 
to identify the object that was to be protected by this 
monument. Therefore, they can also not say what is the 
immediate harm in this particular monument. And rather than be 
limited to 100 or 200 acres, it was 1.7 million acres in its 
designation.
    But what was perhaps most damaging to us was the manner in 
which it was designated. There was no local involvement, no 
consultation with those who would be impacted by the decision, 
and President Clinton didn't even face the Utahans when he did 
it. He signed the proclamation across the State line, in the 
Grand Canyon in Arizona. We will have witnesses from Utah to 
share the unique perspective on the impact of this large-scale 
designation, and why reform is necessary.
    Ironically, this was done in 1996 for the State of Utah. At 
that time--actually, the beginning of this process goes back to 
1995. In 1997, this particular Committee subpoenaed emails and 
records to try and find out what was behind this particular 
designation, and find out that it was an amazing concept that 
this was easily something that was done as a political 
monument.
    In 1996, from the emails that we had, it was clear that if 
the President did not go forward in this and ask for 
information first, and ask only for information about Utah, it 
would look biased. But if he asked for a broad review, it would 
become very clear that there were more compelling--this is a 
quote--``more compelling areas for designation than the Utah 
parks.'' Therefore, they said, ``Is there another hook?''
    These lands in Utah are not really endangered. Nonetheless, 
for political reasons, they went forward. And I am not going to 
say they lied to the State of Utah, but the truth was not 
necessarily told.
    September 10th, Chairman Kathleen McGinty obviously told 
the Delegation from Utah that no decisions had been made. On 
September 13th, the Secretary wrote the Senators and 
Congressmen in that area and said no decisions had been made. 
On the 14th the Secretary in person told the Delegation 
categorically that no decisions had been made.
    On the 17th the Governor was told by the Chief of Staff, 
Leon Panetta, that no decisions had been made. And at that time 
the Chief of Staff was told about school trust lands in a 
proposed area, and he answered that he was unaware of anything 
that existed like that. On September 18th at 2:00 in the 
morning, the Governor was called by the President. And after 
they had talked for a while, the President asked the Governor 
if he would send a memo to explain the situation in Utah. That 
was delivered at 4:00 a.m. to the White House. At 7:30 Mr. 
Panetta told the Governor they had received it, and he would be 
in consultation with the President. At noon on that same day, 
the Grand Staircase-Escalante Monument was announced in Arizona 
at the same time.
    One of the most--this--one of these important reforms is 
what I would try to do that would ensure that public 
participation is guaranteed, and that local concerns are 
considered before any monument is designated. Therefore, reform 
is needed in order to prevent mistakes of the past. I am going 
to recommend that while recent monument designations have 
seemingly enjoyed local support, we cannot always guarantee it.
    Commissioner Jones from Carbon County was going to tell you 
that further coal development in Carbon County is locally 
supported. But his word is simply not good enough to open up 
new mines, because there is an established public process in 
which these decisions are vetted. The bill, H.R. 1459, taps 
that existing process and weighs the impact of monument 
designation. The process is far from perfect, I admit. But it 
is an established process by which activities are subjected to 
a transparent and public process, which have not always been 
the case.
    This will also further prohibit the inclusion of private 
property into monuments without approval of the property 
owners. When Grand Staircase was initiated, private property 
was surrounded by the Staircase, and the squeeze to those 
property owners began. School trust lands were continued in 
that, and two decades later a trade between school trust lands 
and other lands to help the school kids of Utah has still not 
been finalized.
    Rural electrical co-ops have transmission lines that go 
through that that are still in peril and argued today, as well 
as 2,477 roads that are imperiled and argued today. And the 
reason that all these issues are still being argued two decades 
later is because we didn't go through the process of looking at 
a bill in a formal setting.
    I would also like to ask and submit for the record the 
following items: first, a letter from the Utah Farm Bureau, 
articulating the concerns this designate-now-and-plan-later 
approach, especially as it relates to the Grand Staircase-
Escalante; testimony from now-retired Representative Jim 
Hansen, who held the hearing in 1997 and talked about the same 
concept.
    [The letter submitted for the record by Mr. Bishop has been 
retained in the Committee's official files and Representative 
Hansen's statement follows:]

Statement of Hon. James V. Hansen, a U.S. Representative from Utah; and 
       Chairman, Subcommittee on National Parks and Public Lands

  house of representatives, subcommittee on national parks and public 
lands, committee on resources, washington, dc, tuesday, april 29, 1997, 

   serial no. 105-20--establishment of the grand staircase-escalante 
                           national monument
    Mr. Hansen. The committee will come to order. The Subcommittee on 
National Parks and Public Lands convenes to conduct oversight on 
establishment of the Grand Staircase-Escalante National Monument by 
President Clinton on September the 18th, 1996.
    I welcome all our witnesses but especially welcome our Governor, 
Mike Leavitt; Commissioners Louise Liston and Joe Judd; other witnesses 
from Utah, Mr. Austin and Mr. Till. I also welcome Senator Hatch, 
Senator Bennett, Congressman Cannon, Congressman Cook; Secretary of the 
Interior, Bruce Babbitt; and Kathleen McGinty, Director for the Council 
on Environmental Quality. We welcome our witnesses.
    This is a very important hearing for the Utah Delegation, the 
people of Utah, and for all public lands States. As noted on the 
agenda, we have listed the numerous bills that call for amendments to 
the 1906 Antiquities Act.
    This Act gives the President incredible authority to 
instantaneously designate Federal lands as a monument. Today's hearing 
will demonstrate how this Act can be abused and how this Administration 
insists on conducting its affairs behind closed doors and without 
public involvement or concern for the affected people.
    As many are aware, the unilateral action by the President created a 
lot of contention in southern Utah which is already the site of many 
polarized battles over the use of public lands. I requested Secretary 
Babbitt and Miss McGinty to join us to answer questions regarding the 
entire process and the reasons behind the President's actions.
    By way of the 1906 Antiquities Law, President Clinton designated 
1.7 million acres of southern Utah as a national monument. Standing in 
another State, surrounded only by celebrities and those privileged 
enough to be invited, President Clinton locked up the largest deposit 
of compliance coal in the United States and took billions of dollars 
from the school children of Utah.
    Moreover, President Clinton has denied the Federal Treasury of 
billions in revenues from the resources locked up by the monument 
designation. We will hear the impact this has had on the school 
children, the people who live in and around the monument, and impacts 
on the State.
    I cannot stress enough what this action has done to the State of 
Utah. Utah has been the hot bed of contention regarding wilderness, RS 
2477 roads, endangered species, water, timber production, draining of 
Lake Powell, and the list goes on and on. Although we, as a State, are 
working hard to solve some of these problems, it is clear to me that 
this Administration is not interested in solution but is only 
interested in contention and photo opportunities.
    Documents--and I stress that--documents we have received make it 
clear that this new monument had very little to do with preservation of 
lands but was focused on political advantage, photo opportunities, and 
stopping a legitimate coal project. In a memo authored by Miss McGinty 
to senior White House staff, she goes into great length about the 
political advantages of designation, where the most scenic site would 
be, and how designation would give the Department of Interior 
``leverage'' to stop the proposed coal mine.
    These polarized issues are difficult enough to deal with based on 
facts and opinions, but when politics, scenic backdrops, and leverage 
drive natural resource management, we are bound to reach the ``train 
wreck'' that Secretary Babbitt refers to so often.
    Second, it is not clear that the Administration used any science or 
data to support this designation. From the documents produced, the 
experts consulted were Hollywood celebrities, ex-political officials, 
and elite interest groups. This is hardly the type of sciencebased 
management our Federal lands deserve.
    In fact, the Administration knew so little about the area and its 
resources that they had a law professor from the University of Colorado 
draft the proclamation for the President. It is interesting that there 
are plenty of staff available for political maneuvering, but we must 
contract out for the real work.
    For anyone who knows this area, the boundaries alone make little or 
no sense. There are eight oil wells in the monument, private lands, 
houses, and the boundaries are drawn right next to towns. These are the 
type of decisions we get when the managers on the ground and the public 
are excluded from the process.
    NEPA and FLPMA were completely ignored in this process, yet the 
Administration always opposes the most minor waivers contained in 
legislation. It is troubling that the public process required by NEPA 
is good for Congress but can be ignored by the Administration when it 
is politically advantageous.
    I want to be clear that I firmly believe there are lands within the 
Kaiparowits Plateau that deserve protection. I supported the ultimate 
protection of wilderness designation for nearly 500,000 acres of this 
area, yet, once again, those on the other side would rather continue 
the battles as opposed to protecting the lands.
    Secretary Babbitt and Miss McGinty, I did not request your presence 
simply to demagogue this issue, but we have serious questions that the 
people of Utah, this Committee, and Congress deserve to have answered. 
I hope you can provide candid answers to our many questions, and I look 
forward to your testimony and exchange of information. I ask unanimous 
consent that the documents submitted by the Administration be inserted 
into the record as provided. Is there objection? Hearing none, so 
ordered.
    Mr. Hansen. I further ask unanimous consent that the Delegation 
from Utah and the Governor of the State may be allowed to sit on the 
dais after their testimony. Is there objection? Hearing none, so 
ordered. I will turn to my friend from American Samoa for his opening 
statement, the ranking member of the committee.
                                 ______
                                 
    Although I am positive that the Department of the 
Interior's testimony will be automatically included in the 
record, I want to make sure the Department of the Interior's 
testimony is included in the record, because it provides for us 
some great logic. They have declined to testify today, which is 
fine. It is their right to do that. They also claim that some 
of these bills have been given to them very late in the process 
and they haven't had a chance to review it, which is fine, I 
can understand that, as well. But they still chose to opine on 
all these pieces of legislation, obviously opposed to them.
    What I would like to do, though, is to recommend to you 
what their rationale was. Interior said, ``While land 
management agencies typically use the NEPA process in their 
development for monument plans, this application of NEPA is a 
discretionary--to a discretionary decision by the President 
would be unprecedented and extraordinary, because the President 
is not a Federal agency.''
    I want you to think about that for a minute. The President 
is not an agency. He is in charge of the agencies, he is the 
head of the agencies, he appoints the agencies, he is 
responsible for the agency. The agencies can do a NEPA review. 
The President should not because? However, in the hubris of 
this testimony, in the next paragraph the Department of the 
Interior has the gall to say, ``The Administration supports 
conducting an open, public process that considers input from 
local, State, and national stakeholders before any sites are 
considered for designation.''
    Indeed, they want to have an open process, unless they 
don't have to have an open process and they don't want to have 
an open process.
    I also should complain that this is not necessarily the 
position of this particular Administration. Both Republican and 
Democrat Administrations have abused the Antiquities Act and 
have had the same mindset that they have a legislative power 
given to them by Congress 100 years ago, and they don't want to 
give up that power because they don't want to give it up.
    I will also be requesting, though, even though they are not 
here from the Department of the Interior, that they answer a 
few questions in their role of oversight. Two of the monuments 
that have been designated were private property that were 
designated by President Obama as national monuments. However, 
in both those situations, they were private property until 2 
days before the designation--2 days before the designation--in 
which they were donated to the Federal Government.
    To an agency that takes months, stretching into years, to 
make a permitting decision, to be able to react that quickly 
within 2 days is, indeed, amazing to do it. I would like the 
Department of the Interior to tell us how do they accept 
donations of property, where is the vetting process? If I have 
a whole bunch of hazardous waste, can I simply donate it to the 
Federal Government and get out of the responsibility for the 
cleanup of that waste?
    Was the Justice Department involved in that? And if they 
were involved, did that not trigger the concept of where you 
have to have some kind of open process? Is the idea of 
sunshine, or transparency, or whatever word you want to use in 
a process, so what the President does has to go through the 
same process that every other agency of government goes 
through, and Congress has to go through, is that so bad? And 
why is that a reason for opposing this particular piece of 
legislation?
    Look, we are going to hear a lot of stuff here. I welcome 
the Members of Congress who have different bills here that 
cover different aspects of this entire issue. I welcome also 
the private sector witnesses who will be joining us today. We 
don't have quite as many as we had originally planned on 
having, but there will be three of them.
    What I want you to do is--thank you for your willingness to 
be here. I also want to give you the opportunity to stay with 
us for the rest of the day, after you have had a chance to 
testify for your bills. Please join us on the dais, if you 
would like to. If, on the other hand, you want to stiff us and 
go do something else, I can understand that process, as well.
    I think this is going to be an informative session, and it 
is truly a significant issue with which we need to delve into 
some particular way.
    With that, I will close my opening remarks, as, obviously, 
my testimony on the bill, and would ask the Ranking Member if 
he is willing to give an opening statement.
    [The prepared statement of Mr. Bishop follows:]
Prepared Statement of The Honorable Rob Bishop, Chairman, Subcommittee 
              on Public Lands and Environmental Regulation
    Today, we will hear testimony on a number of bills that would 
reform the Antiquities Act, a century-old and controversial instrument 
used by Presidents to unilaterally create national monuments. 
Established in 1906, the Antiquities Act authorizes the President to 
proclaim national monuments on Federal lands and regulate the care and 
study of our Nation's antiquities. While it was created to quickly 
reserve and protect historic landmarks, historic and prehistoric 
structures, or other objects of historic or scientific interest, the 
Act has been used to designate tracks of land well beyond, as the Act 
states, ``the smallest area compatible with the proper care and 
management of the objects to be protected.''
    Since its inception in 1906, Presidents have proclaimed a total of 
137 monuments. As recently as last month, President Obama created five 
more. While some have received little to no opposition, some have been 
much more contentious, like the creation of Grand Staircase-Escalante 
National Monument in the State of Utah.
    As you might see from the Utah delegation's participation today and 
their sponsorship of Antiquities Act reforms, there is widespread 
feeling within our State that we were dealt a great injustice by 
President Clinton when he created the Grand-Staircase-Escalante 
Monument. This Proclamation violated both the letter and spirit of the 
``smallest area'' clause and purposefully locked-up an abundance of 
domestic energy resources, hurt our national security, and limited 
local economic activity.
    What was most damaging, however, was the manner in which this 
designation was made. There was no local involvement or input. No 
consultation with those most affected by the decision. And President 
Clinton couldn't even face the citizens of Utah: he signed the 
proclamation across the Grand Canyon in Arizona. We have witnesses here 
from Utah whom will share their unique perspective on the impact of 
this large-scale designation and why reasonable reform is necessary.
    One of the most important reforms is provided for in H.R. 1459--the 
``Ensuring Public Involvement in the Creation of National Monuments 
Act''. The bill would ensure public participation and guarantee that 
local concerns are heard and considered before a designation moves 
forward. This reform is needed in order to prevent the mistakes of the 
past. Further, while recent monument designations have seemingly 
enjoyed ``local support'', we cannot guarantee it. Commissioner Jones 
would tell you that further coal development in Carbon County is 
``locally supported'', but his word is not good enough to open up new 
mines because, well, he's biased (!) and because there is an 
established public process in which these decisions are vetted.
    H.R. 1459 taps into this existing process to weigh the impacts of 
monument designations. This process is far from perfect, but it is an 
established process by which activities are subjected to a transparent 
and public process. H.R. 1459 will further prohibit the inclusion of 
private property into a monument without the approval of property 
owners. The bill would allow the President to provide emergency 
protections for a genuinely threatened site of up to 5,000 acres, but 
limits these emergency designations to 3 years so that Congress has 
time to act and make the final determination. The bill allows no more 
than one designation per State during any presidential 4-year term. 
Finally, the bill requires a study of the costs associated with 
managing the National Monument.
    We need to ensure that the interests and livelihoods of all 
residents and stakeholders are considered and protected. Land use 
designations, especially large landscape scale national monuments, 
should be initiated at the local level, not out of pressure from 
Washington and definitely not unilaterally.
    Presidential authority under the Antiquities Act has been modified 
on two occasions. First, following the 1943 proclamation of Jackson 
Hole National Monument, a law was passed that mandated Congressional 
consent for future monument creations or enlargements in Wyoming. 
Second, following controversial designations in Alaska in 1978, 
Congress again passed a law that requires congressional approval for 
any land withdrawal in Alaska greater than 5,000 acres. Worthy 
landscapes and places are still being preserved and protected in the 
States through local, State, and congressional action.
    The other bills that we will examine during today's hearing would 
bring these other Western States on par with their neighbors.
    Absent the reforms outlined today, monument designations must be 
constrained in size and solely limited to contiguous lands that are 
already owned by the Federal Government. Private property and 
inholdings should be excluded from designations. They should be limited 
to the sites that clearly contain ``historic landmarks, historic and 
prehistoric structures, and other objects of historic or scientific 
interest.'' Monument designations should not be used as a backdoor 
maneuver to lockup lands for general purposes that deny public access 
for recreation and job-creation. Designations should also be limited to 
areas that face clearly-articulated, imminent threats. The simplistic, 
generalized notion that any potential commercial use is a threat is 
neither correct nor adequate justification for peremptory action.
                                 ______
                                 

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much, Mr. Chairman, and as a 
point of personal privilege, we are fortunate to have several 
local-elected officials whose communities have been directly 
impacted and benefited from recent national monument 
designations that are here at today's hearing in attendance. 
Unfortunately, the Minority was allowed only to invite one 
witness, so we won't be able to hear any of their stories, 
which I believe is an important part of the information that 
this Committee needs to have. So I want to thank you all for 
being here and showing support for the Antiquities Act and 
Federal conservation efforts. And let me, as a point of 
introduction, read their names.
    Ms. Gail Morton is a Councilwoman for the City of Marina, 
California, advocate for the Fort Ord National Monument. Mr. 
Michael Whiting is a Commissioner for Archuleta County, 
Colorado. Mr. Larry Sanchez is a Commissioner for Taos County, 
New Mexico, where he and the Commission there advocated for the 
designation of the Rio Grande Del Norte National Monument. Mr. 
Bill Barthel is a Councilman for the City of New Castle, 
Delaware, and was the leading local advocate for the First 
State National Monument. Ms. Marcia Bayless is the Mayor of the 
City of Xenia, Ohio, and was a leading local advocate for the 
Charles Young Buffalo Soldiers National Monument. Mr. Jamie 
Stephens is a Councilman for San Juan County Council, 
Washington, which supported the designation of the San Juan 
Islands National Monument. Mr. Mark Austin is a member of the 
business community of Escalante, Utah, and a local advocate for 
the Grand Staircase-Escalante National Monument.
    Ms. Nora Barraza is the Mayor of the Town of Mesilla, New 
Mexico, and an advocate for the proposed Organ Mountains-Desert 
Peaks National Monument. Mr. Gabe Vasquez, Vice President of 
the Local Health Care Company, and former Executive Director of 
the Hispano Chamber of Commerce in Las Cruces, New Mexico, and 
also an advocate for the Organ Mountains-Desert Peaks National 
Monument. Mr. Luther Propst, a constituent of mine from 
Arizona, a noted conservationist, both in the State and 
nationally.
    Welcome to all of you, and thank you for being here to show 
that support.
    I want to thank the Chairman for holding this hearing 
today. The Antiquities Act is an important part of the Federal 
effort to protect historically and culturally significant 
sites. Previous congresses understood its importance and knew 
that sometimes taking years to protect vulnerable areas is not 
an option. Sixteen of the 19 Presidents who have held office 
since the passing of the Antiquities Act have used it to 
establish national monuments. This process now has suddenly 
become mysterious and controversial.
    From iconic natural wonders like the Grand Canyon to, 
recently, President Obama's declaration of the Cesar Chavez 
National Monument, the Antiquities Act helps make sure that our 
heritage isn't bulldozed away or forgotten. I am disappointed 
to see that the Majority thinks that it needs to be tampered 
with and watered down. It worked just fine for President George 
W. Bush to declare Marina National Monument in Hawaii. Now, 
under President Obama, it has become the worst law since 
Prohibition.
    I am fortunate to represent a good amount of public land. 
My constituents benefit from having national monuments in their 
backyard, and so does Arizona, to the tune of 104,000 jobs that 
are directly tied to activity on the public lands, and over 
$10.6 billion in consumer purchases and spending in the State.
    Public lands in Arizona, as in every other State, are a net 
positive for our economy. The Antiquities Act and the role of 
that Act in enhancing and conserving these lands should not be 
ignored. Instead of focusing the Committee on ways to improve 
our public lands, we are wasting time discussing bills that we 
know will be dead on arrival in the Senate, and have no chance 
of being signed by the President.
    Given last week's hearing on the need to do away with NEPA 
and the environmental review process on Federal forests, it is 
ironic that the Majority suddenly loves public input in the 
monument designation process. Before we hear the arguments in 
favor of eroded Presidential authority under the Antiquities 
Act, it is important to look at the Majority's record in moving 
conservation forward, and moving legislation.
    In the 112th Congress, 10 bills were introduced to 
designate monuments to protect areas as historic sites. Five of 
those bills were heard by the Committee, and only two--both of 
them were from Republican colleagues--were put before the 
entire House. There were 23 wilderness proposals introduced, 
only 10 had a hearing. None of those proposals moved any 
further.
    You can't have it both ways. They can't complain about the 
Antiquities Act while neglecting legislation that seeks to 
accomplish the same objective. They can't complain about 
wilderness study area management or new conservation strategies 
when we refuse to consider wilderness legislation. The more the 
Majority obstructs conservation efforts, the more the public, 
including many people in this room, will realize their 
interests are not being represented.
    I am grateful to Democratic colleagues that are here today 
in support of the monuments in their districts.
    And this law is not a law that is abused. This is a law 
that Presidents have used as a last resort, on many occasions. 
And if this Committee wants to deal with the issue of 
conservation, let's deal with legislation that has been before 
this Congress time and time again, and deal with that 
legislation with due diligence and with hearings, so that 
people like the people that are here today will have their 
opportunity to come before this Committee and show support for 
those designations.
    With that, Mr. Chairman, thank you and I yield back.
    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of The Honorable Raul M. Grijalva, Ranking Member, 
       Subcommittee on Public Lands and Environmental Regulation
    I want to thank Chairman Bishop for holding this hearing today.
    We welcome any opportunity to talk about land conservation, and the 
Antiquities Act is an important component of Federal efforts to 
conserve our heritage.
    The Antiquities Act was created to give Presidents the latitude to 
protect historically and culturally significant sites. Previous 
Congresses understood the importance of divesting some of its authority 
to other branches of government that aren't as beholden to political 
paralysis.
    Sometimes conservation can't wait for Congress to act, which is why 
16 of the 19 Presidents who have held office since the passing of the 
Antiquities Act have used it to establish National Monuments.
    This bipartisan group of Presidents used the Antiquities Act to 
protect some of our Nation's most historically and culturally important 
sites.
    From iconic natural wonders like the Grand Canyon to President 
Obama's recent declaration of the Cesar E. Chavez National Monument, 
the Antiquities Act helps make sure our heritage isn't hastily bull 
dozed away.
    The Antiquities Act deserves the attention of Congress, but I am 
disappointed to see that the majority thinks it needs to be tampered 
with and watered down. It worked just fine when President George W. 
Bush declared the Marine National Monument in Hawaii.
    I am fortunate to represent a district with a significant amount of 
public land. My constituents benefit from having National Monuments in 
their backyards, and so does the entire State of Arizona.
    Arizona is a popular tourist destination for outdoor recreation 
enthusiasts. People are drawn to our State because of the Federal 
conservation efforts, not despite them.
    According to a recent report by the Outdoor Industry Association, 
outdoor recreation generates 10.6 billion dollars in consumer spending 
and supports 104,000 jobs in Arizona. A lot of that activity occurs on 
public lands.
    Public lands are a net positive for our State. There's really no 
way to deny their enormous contribution. The role of Antiquities Act in 
enhancing and conserving these lands should not be ignored.
    The Antiquities Act is a landmark law that should be celebrated, 
not relentlessly attacked for the sake of scoring a few political 
points.
    But instead of focusing this committee's time on ways to improve 
the management of our public lands, we are wasting more time discussing 
bills that are DOA in the Senate and have no chance of being signed by 
the President.
    Given, last week's hearing on the need to do away with NEPA and the 
environmental review process on Federal forests, it's ironic that the 
Majority is now cheerleading the concept of public input in the 
monument designation process.
    Before we hear the arguments in favor of eroding presidential 
authority under the Antiquities Act, it's important to look at the 
Majority's record on moving conservation related legislation.
    In the 112th Congress--10 bills were introduced to designate 
monuments or protect areas as historic sites. 5 of those bills were 
heard by the Committee and only 2--both Republican bills--were put 
before the entire House of Representatives. Three of the new monuments 
established by President Obama had bills filed in the House last 
Congress. None of them had even a hearing.
    There were 23 wilderness proposals introduced and only 10 had 
hearings--none of those proposals moved any further than a hearing.
    The Majority can't have it both ways.
    They can't complain about the Antiquities Act when they fail to 
consider legislation seeking to accomplish the same objective.
    They can't complain about Wilderness Study Area management or new 
conservation strategies when refusing to give wilderness legislation 
fair consideration.
    The more the Majority obstructs conservation efforts, the more the 
pubic, including many people in this room, will realize that they are 
not being well represented.
    We are fortunate to have several local elected officials whose 
communities have directly benefited from recent National Monument 
designations at today's hearing.
    Unfortunately, the Majority only allowed us to invite one witness, 
so we won't be able to hear any of their stories. Thank you all for 
coming to show your support for the Antiquities Act and--more broadly--
Federal conservation efforts.
    I also am grateful for my Democratic colleagues who are here today 
in support of monuments in their Districts.
    Thank you, and with that, I yield back my time.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. Grijalva. All right. We will 
turn to our first panel of witnesses, those who have bills that 
are before us for this particular hearing. And those at the 
front of me as well as some on the dais. So let me go in this 
particular order.
    If we can start first with Ms. Foxx, who has Bill 382. And 
then I understand you are also supposed to be chairing a 
hearing at the same time. So if you would like to leave and--we 
will not think less of you for going as soon as you talk.
    [Laughter.]
    Mr. Bishop. Representative Chaffetz, who has Bill 250, let 
me just go down the list there with Representative Doggett, who 
has Bill 885, thank you, and I understand you also have another 
commitment, so I understand that. Representative Carney--if I 
can see that--from Delaware, and Representative Scott from 
Virginia have been asked to testify concerning this particular 
issue. We will be happy to hear your testimony then.
    Mr. Gosar, your bill is not technically before us, but if 
you would like to say something, we would be happy to have 
that. I have Representative Labrador, who has 1439; 
Representative Stewart, who has 758; Representative Daines, who 
has 1434. And did I miss anybody?
    [No response.]
    Mr. Bishop. We will go in that order. You all know the 
drill. The 5 minutes are before you.
    Representative Foxx, you are recognized.

   STATEMENT OF THE HON. VIRGINIA FOXX, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Ms. Foxx. Thank you very much, Mr. Chairman, Ranking Member 
Grijalva, members of the Committee, for the opportunity to come 
and speak before you. And thank you, Mr. Chairman, for 
recognizing that I do have to chair a Subcommittee myself, so I 
am not stiffing you, but am going to leave in order to do my 
other duties.
    Originally intended for the preservation of often-
vandalized archeological sites, the Antiquities Act of 1906 
granted the President unilateral authority to proclaim national 
monuments on Federal lands. As the Chairman said in his 
remarks, the act requires that national monuments be of the 
``smallest area compatible with proper care and management of 
the objects.'' Presidents have clearly ignored the requirement 
to minimize the size of national monuments when proclaiming 
many of the national monuments created today. The excessive 
size of many national monuments is an issue because the 
agencies that manage them frequently restrict access to the 
land for recreational use, energy development, grazing, and 
other purposes.
    One example of a common harmful use restriction is a ban on 
motorized recreation. A Western Governors Association study 
shows that motorized recreation provided over $250 billion in 
economic impact in 2011. Overly harsh restrictions on 
recreation or other land uses can have a severe negative 
economic impact on States and localities that rely on those 
activities.
    The danger of unilateral national monument designations 
exist throughout the United States. In total, the Federal 
Government currently owns over 630 million acres spread across 
every State in the Nation, including nearly 50 percent of the 
land mass of 11 Western States, and 62 percent of Alaska. That 
danger was highlighted by a leaked Bureau of Land Management 
memo in February 2010 that exposed the Obama Administration's 
plan to designate numerous new national monuments, locking up 
another 13 million acres of Federal land in 11 States for 
public use.
    For a time it appeared public outcry and strong oversight 
from this Committee had stopped the Administration. But recent 
events suggest otherwise. On March 25th, the President 
designated five new national monuments, including two 
previously proposed in the Bureau of Land Management memo. The 
larger of those, the Rio Grande del Norte National Monument, is 
over 240,000 acres. I fear that is merely the start.
    This fear seems justified when reviewing President 
Clinton's record. In his final year in office he unilaterally 
deemed 18 new national monuments and expanded 3 more, 
restricting access to millions of acres of land.
    Congressional oversight of abusive Antiquities Act 
designations is not unprecedented. As the Chairman mentioned, 
in 1950 a prohibition on the creation of new national monuments 
in Wyoming except by express congressional authorization was 
enacted. After President Carter's land-grab in Alaska, Congress 
forced enactment of a congressional veto on future national 
monument designations in the State. The residents of Alaska and 
Wyoming merit that protection, but the residents of the 
remaining 48 States deserve the same.
    That is why I introduced H.R. 382, the Preserve Land 
Freedom for Americans Act, to require State approval as granted 
by the legislature and Governor of a State before the President 
could designate a national monument within its borders. It 
would also require a period of public input of a length to be 
determined by the Secretary of the Interior and State approval 
before any restriction on public use of a national monument is 
implemented.
    States and their citizens deserve to have a say in the 
disposition of Federal lands within their jurisdiction. The 
Preserve Land Freedom for Americans Act would provide the 
public a full opportunity to have their viewpoints heard. The 
political process is the best means of balancing the 
consideration given to potentially conflicting interests. 
State-elected officials participating in that process have a 
uniquely informed perspective on the best use of land in their 
State, and work to advance the best interest of their 
constituents.
    For too long, Washington has been making unilateral 
national monument designations that infringe on States' rights, 
burden local residents, and restrict vital access for resource 
development and recreational use. H.R. 382, the Preserve Land 
Freedom for Americans Act, would change that by providing State 
governments a voice in the process. H.R. 382 is cosponsored by 
25 Members of the House and supported by many organizations.
    Congress must act to ensure consideration of the local 
impact of Presidential national monument designations. Thank 
you, Mr. Chairman, for the opportunity to come to the Committee 
and speak about H.R. 382, the Preserve Land Freedom for 
Americans Act. And I have submitted a letter of support for the 
record, which I would appreciate your consent.
    [The prepared statement of Ms. Foxx follows:]
Prepared Statement of Representative Virginia Foxx, a Representative in 
         Congress From the State of North Carolina, on H.R. 382
    Thank you very much, Mr. Chairman, Ranking Member Grijalva, and 
Members of the Committee for the opportunity to come and speak before 
you.
    Originally intended for the preservation of often-vandalized 
archeological sites, the Antiquities Act of 1906 granted the President 
unilateral authority to proclaim National Monuments on Federal lands. 
The Act requires that National Monuments be of the ``smallest area 
compatible with proper care and management of the objects.''
    Presidents have clearly ignored the requirement to minimize the 
size of National Monuments when proclaiming many of the National 
Monuments created to-date. President Carter alone designated over 50 
million acres in Alaska as National Monuments.
    The excessive size of many National Monuments is an issue because 
the agencies that manage them frequently act to restrict access to the 
land for recreational use, energy development, grazing, and other 
purposes.
    One example of a common, harmful use restriction is a ban on 
motorized recreation. A Western Governors' Association study shows that 
motorized recreation provided over $250 billion in economic impact in 
2011. Overly harsh restrictions on recreation or other land uses can 
have a severe negative economic impact on States and localities that 
rely on those activities.
    The danger of unilateral National Monument designations exists 
throughout the United states. In total, the Federal Government 
currently owns over 630 million acres spread across every State in the 
Nation, including nearly 50 percent of the landmass of 11 Western 
States and 62 percent of Alaska.
    That danger was highlighted by a leaked Bureau of Land Management 
memo in February 2010 that exposed the Obama Administration's plan to 
designate numerous new National Monuments, locking up another 13 
million acres of Federal land in 11 States from public use. For a time, 
it appeared public outcry and strong oversight from this Committee had 
stopped the Administration, but recent events suggest otherwise.
    On March 25th, the President designated five new National 
Monuments, including two previously proposed in the leaked Bureau of 
Land Management memo. The larger of those, the Rio Grande del Norte 
National Monument, is over 240,000 acres. I fear that is merely the 
start.
    This fear seems justified when reviewing President Clinton's 
record. In his final year in office, he unilaterally deemed 18 new 
National Monuments and expanded 3 more, restricting access to millions 
of acres of land.
    Congressional oversight of abusive Antiquities Act designations is 
not unprecedented. After President Carter's land grab in Alaska, 
Congress forced enactment of a congressional veto on future National 
Monument designations in the State. In 1950, a prohibition on the 
creation of new National Monuments in Wyoming except by express 
congressional authorization was enacted. The residents of Alaska and 
Wyoming merit that protection, but the residents of the remaining 48 
States deserve the same. That is why I introduced H.R. 382, the 
Preserve Land Freedom for Americans Act to require State approval, as 
granted by the Legislature and Governor of a State, before the 
President could designate a National Monument within its borders.
    It would also require a period of public input, of a length to be 
determined by the Secretary of the Interior, and State approval before 
any restriction on public use of a National Monument is implemented.
    States and their citizens deserve to have a say in the disposition 
of Federal lands within their jurisdiction. Federal officials have long 
voiced an interest in consulting with local stakeholders. 
Unfortunately, that voluntary consultation has not always occurred.
    For instance, Secretary Salazar participated in only one local 
meeting before the recent proclamation of the 240,000 acre Rio Grande 
del Norte National Monument. I've heard from stakeholders that only 24 
hours notice was provided for the meeting and that the invitation was 
limited to select groups. That is not the way to ensure all 
perspectives are considered.
    The Preserve Land Freedom for Americans Act would provide the 
public a full opportunity to have their viewpoints heard. The political 
process is the best means of balancing the consideration given to 
potentially conflicting interests. State elected officials 
participating in that process have a uniquely informed perspective on 
the best use of land in their State and work to advance the best 
interests of their constituents.
    For too long, Washington has been making unilateral National 
Monument designations that infringe on States' rights, burden local 
residents, and restrict vital access for resource development and 
recreational purposes. H.R. 382, the Preserve Land Freedom for 
Americans Act, would change that by providing State governments a voice 
in the process.
    H.R. 382 is cosponsored by 25 Members of the House and supported by 
10 national motorized recreation organizations, whose letter of support 
I would like to submit for the record.
    Congress must act to ensure consideration of the local impact of 
presidential national monument designations. Thank you, Mr. Chairman, 
for the opportunity to come to the Committee and speak about H.R. 382, 
the Preserve Land Freedom for Americans Act.
                                 ______
                                 
  Letter Submitted for the Record by the Representatives of National 
                  Motorized Recreational Organizations
The Honorable Virginia Foxx,
U.S. House of Representatives,
Washington, D.C. 20515.
    Dear Representative Foxx: As representatives of national motorized 
recreation organizations we write in support of H.R. 382, the Preserve 
Land Freedom for Americans Act.
    H.R. 382 would require State approval before any President could 
move forward with a National Monument designation. As it stands, the 
Antiquities Act of 1906 grants the President the authority to designate 
``. . . historic landmarks, historic and prehistoric structures, and 
other objects of historic or scientific interest that are situated upon 
the lands owned or controlled by the Government of the United States to 
be national monuments.'' The Antiquities Act also holds that national 
monuments should be ``. . . confined to the smallest area compatible 
with proper care and management of the objects to be protected . . . 
,'' yet Presidents of both parties have, in our view, inappropriately 
designated enormous swaths of public lands as national monuments. One 
particularly egregious example was the designation of nearly 2 million 
acres of public land as the Grand Staircase/Escalante National Monument 
in Utah.
    It is no secret that those most affected by land use decisions are 
those who live, recreate and make their livelihoods on or near the 
public lands in question. When the Grand Staircase/Escalante National 
Monument was designated, the Governor of Utah and other key officials 
were given only 24 hours of notice and the people of Utah were left 
without a voice on how the lands in their State would be managed. Some 
environmental organizations in Utah, New Mexico and other States are 
calling on the President to forsake ongoing administrative or 
legislative processes at the local level in favor of unilateral action 
that would satisfy a narrow group of stakeholders. Once enacted, your 
legislation would ensure that this sort of unilateral action is no 
longer possible.
    Too often when widespread local and congressional support to 
designate public lands as wilderness cannot be established, wilderness 
proponents turn to a strategy of calling for the President to achieve 
similar goals by administratively designating the area as a National 
Monument. It is time for this practice to stop. As a result we 
wholeheartedly support H.R. 382 and thank you for your leadership on 
this important issue.
            Sincerely,

Larry Smith, Executive Director, 
Americans for Responsible 
Recreational Access.                Christine Jourdain, Executive 
                                    Director, 
                                    American Council of Snowmobile 
                                    Associations.

Wayne Allard, Vice President, 
Government Relations, American 
Motorcyclist Association.           Greg Mumm, Executive Director, 
                                    BlueRibbon Coalition.

Duane Taylor, Director, 
Federal Affairs, Motorcycle 
Industry Council.                   Russ Ehnes, Executive Director, 
                                    National Off-Highway Vehicle 
                                    Conservation Council.

Fred Wiley, Executive Director, 
Off-Road Business Association.      Paul Vitrano, Executive Vice 
                                    President, 
                                    Recreational Off-Highway Vehicle 
                                    Association.

Kathy Van Kleeck, Senior Vice 
President, Government Relations, 
Specialty Vehicle Institute of 
America.                            Carla Boucher, Legislative 
                                    Advocate, 
                                    United Four Wheel Drive 
                                    Associations.
                                 ______
                                 
    Mr. Bishop. Thank you. Representative Chaffetz, my 
colleague--and thank you, Virginia, for coming here. I hope we 
haven't made you too late for your other meeting.
    Ms. Foxx. No.
    Mr. Bishop. Representative Chaffetz, you are recognized for 
your bill, if you please.

   STATEMENT OF THE HON. JASON CHAFFETZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Chaffetz. Thank you, Chairman Bishop and Ranking Member 
Grijalva. I appreciate the opportunity to talk about H.R. 250, 
which would reform the Antiquities Act of 1906 by requiring 
congressional approval of any national monument designated by 
the President.
    Under current law the President can unilaterally designate 
national monuments on Federal land outside of Alaska or Wyoming 
without any check or balance from the U.S. Congress. Congress 
passed the Antiquities Act in 1906 with the intent of 
preserving archeological sites, mainly Indian ruins and 
artifacts on small parcels of land that required immediate 
protection. Unfortunately, Presidents have used the Antiquities 
Act for purposes clearly beyond its original intent of 
preserving small parcels of land containing Indian artifacts 
that were being looted and vandalized and required immediate 
protection.
    For example, just weeks before the 1996 election, President 
Clinton designated more than 1.7 million acres--that is a lot 
of land. It was more than 1.7 million acres of BLM land in Utah 
that was designated suddenly, overnight--literally, overnight--
as a national monument. This massive national monument was 
created by Executive order without any congressional approval, 
and without the input of the Governor of Utah or local 
government officials, and certainly without the public.
    In 2010, a leaked Department of the Interior memo revealed 
that the Obama Administration was considering designating 14 
new national monuments in 9 States. Opponents to this bill may 
argue that the Antiquities Act was used to protect the Grand 
Canyon or Devil's Tower, or some of the other national 
treasures in this country. However, unilateral Presidential 
action is not required to protect Federal land.
    The President and Congress have worked together over the 
past several decades to create numerous national parks, 
national monuments, and wilderness areas. H.R. 250 is not 
intended to stop the creation of national monuments. The bill 
simply seeks to add transparency, oversight, and a debate to 
the process of designating national monuments. What we are 
arguing for is public participation, public input, a 
discussion. And those that would stand in opposition of H.R. 
250 are arguing, therefore, for no debate, no discussion. What 
we are simply saying is there should be a concurrence of 
Congress. This is a body that should, with Presidential 
leadership, function and have a discussion on things that are 
going to affect real people's lives.
    Reform of the Antiquities Act is long overdue. One of the 
fundamental principles of the Constitution is the system of 
checks and balances, and this principle should be extended to 
the creation of national monuments. Again, H.R. 250 is intended 
to have more public debate. That is all we are arguing for. Let 
the Congress have some input. Let the people's lives who are 
affected have some input.
    In Utah, nearly 70 percent of our land is owned by the 
Federal and State government. I have counties in the State of 
Utah that are more than 93 percent owned by the Federal 
Government. I have a county in Utah, Emory County, it is larger 
than the size of Connecticut.
    We have to have some certainty in this process. And if you 
don't allow people who love and care and live on this land the 
opportunity to participate, then we are doing something that is 
terribly irresponsible. Again, there are many pieces of land 
that should be preserved forever. And I am willing to 
participate in that discussion. But H.R. 250 is needed. It may 
be good when your President is the President, but what if 
somebody else came along that you didn't agree with? Of course 
the Congress is supposed to be set up to have that sort of 
effort, to have that sort of input.
    So, again, Mr. Chairman, Ranking Member, I appreciate the 
consideration of H.R. 250. I think this is long overdue, it 
certainly is warranted, and will give a much more balanced 
approach to this process. I thank you all and I yield back.
    Mr. Bishop. Thank you, Representative. And, Jason, as well, 
if you would like to stay with us, you are more than happy to 
be here--to participate in the rest of the debate or answer 
questions that may come up. But I realize how busy everyone in 
front of me is, which means I am not and neither is Raul, so 
that is why we are here.
    In the short title of all pieces of legislation it always 
says what the bill is for and then ``other purposes.'' 
Representative Doggett, for this Committee's hearing, you are 
the ``other purposes.'' You have the bill that has nothing to 
do with antiquities. We would like to recognize you for 5 
minutes if you would like to speak toward your particular bill 
that is on this hearing agenda.

   STATEMENT OF THE HON. LLOYD DOGGETT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Doggett. Thank you for that clarification on the 
Antiquities Act because I am here today solely on behalf of an 
existing national park, and an important one, the San Antonio 
Missions National Park. I appreciate this opportunity from you, 
from Ranking Member Grijalva, and my colleagues.
    The Spanish missions in San Antonio are really a unique 
treasure for Texans and for all of America. The Missions 
National Historic Park preserves the largest collection of 
Spanish colonial resources anywhere in America. And it is an 
educational, historical, and cultural resource that is each 
year bringing over a million people to enjoy and learn from it. 
The park is important to the understanding of Texas, and 
really, of the development of the United States. And, of 
course, it has a very strong positive economic impact for San 
Antonio and Bexar County.
    H.R. 885 is a bill that would expand the boundary of the 
park, as shown on the map, by 137 acres. It has the support of 
all five of us who represent any portion of Bexar County. Most 
people, of course, know San Antonio from The Alamo. The Alamo 
is not on the map that I have here, it is to the north of that 
area. The Mission Concepcion, Mission San Jose, which is on the 
map, you can see the green area that represents the small 
amount, the 137 acres, that would be added to the existing 
park.
    Thanks to the leadership of Judge Nelson Wolff, there is 
now a trail called Mission Reach so that you can get on 
downtown at about the Alamo and walk or bike all the way down 
to Mission Espada, as this trail is completed in the very near 
future. After Mission San Jose, where we will be celebrating 
with thousands of people--Missionfest--in a couple of Sundays, 
you get to Mission San Juan. That mission has just been 
restored with private funds. It is more narrow than our hearing 
room. It is a beautiful, white, stucco building, beautiful with 
its simplicity. It goes back to a time that the Spanish were 
interacting with the Native Americans there in San Antonio.
    A tremendous amount of private resources have gone into the 
restoration of Mission San Juan, Mission San Jose, and now 
soon-to-be completed Mission Espada. This bill is one that 
enjoys the support of the Archdiocese of San Antonio. I was 
just recently with Archbishop Gustavo Garcia Siller, and Father 
David Garcia, as we reopened Mission San Juan. There has been 
other involvement of local officials. The line just north of 
Mission San Juan is our new Veterans Memorial Bridge, with the 
support of State Representative Joe Farias. The legislation 
also enjoys the support of the National Parks Conservation 
Association, a group called Los Compadres, which is a group of 
citizens throughout the area that helps raise resources to 
promote the park, and the National Park Service.
    This Committee is familiar with this legislation, because 
it has considered similar legislation before. And what I have 
tried to do in the bipartisan bill before you today is to 
include every provision that this Committee wanted, such as no 
Federal purchase of land, no condemnation, that type of thing, 
with one exception, and that is that the bill as filed includes 
a study to explore the possibility of expanding the parks and 
includes some old ranch lands that were associated.
    I understand that there is some objection on the Committee 
to that. And let me say our goal is to get this additional 137 
acres connected to the park. If the Committee feels that the 
study stands in the way of passing this bipartisan bill, please 
amend it and give us the rest of the bill. This bill will not 
become law without the support of Senator Cornyn and Senator 
Cruz, over in the U.S. Senate. I believe it will have that. 
But, as you know, they talk longer and take a little longer to 
consider things over there. And it would be really helpful to 
us, with this broad support, to get it over to them as soon as 
possible.
    I served on this Committee myself under Chairman Hansen 
many years ago. I understand the views are as strongly felt as 
they are this morning on different issues concerning natural 
resources before the Committee. But I believe we have a bill 
that the Committee understands. It is a modest step that will 
really enhance a national treasure. And I hope you can move on 
it promptly.
    I have not called, Mr. Chairman, any witnesses today but 
stand ready to answer any questions you might have. And I think 
some of my colleagues will be submitting written testimony in 
support of the bill, aware that the Committee is very familiar 
with its provisions.
    Mr. Bishop. Thank you, Mr. Doggett. Lloyd, if you would 
like to stay with us, please feel free to join us on the dais, 
where you can participate in the rest of the hearing or answer 
questions, if anyone has them. So far, no one has ever taken me 
up on that offer, but you have the offer, nonetheless.
    Mr. Doggett. Thank you----
    Mr. Bishop. Thank you for your presentation on your bill.
    Mr. Carney, a new Member from Delaware, I understand.
    Mr. Carney. I am.
    Mr. Bishop. You have 5 minutes to talk on this issue, if 
you would like to.

STATEMENT OF THE HON. JOHN C. CARNEY, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF DELAWARE

    Mr. Carney. Thank you, Mr. Chairman, and I want to thank 
the Ranking Member and the other members of the Committee for 
the opportunity to testify today. I would like to use this 
opportunity to offer some perspective about how the Antiquities 
Act was an invaluable and positive tool in allowing my home 
State of Delaware to become the final State to be included in 
the National Park System.
    This happened just a few weeks ago, when the President 
declared the First State National Monument. The creation of the 
national monument will ensure that historic sites in Delaware 
and Pennsylvania will be protected in perpetuity. The First 
State National Monument is a result of a 10-year effort by 
Delaware's Federal, State, and local officials, led by 
Delaware's senior Senator, Tom Carper, and my predecessor, Mike 
Castle, to establish a national park within the State of 
Delaware.
    As many are aware, until the President designated the 
national monument a few weeks ago, Delaware was the only State 
not in the National Park System. In 2002, with input from local 
stakeholders, Senator Carper established a citizens group to 
work with the public across the State of Delaware on ideas for 
a national park.
    The group put forth various themes and resources that the 
community felt could be represented in a park unit. After a 
subsequent resource study, the National Park Service under 
President Bush found that several of the groups' ideas held 
merit. The Park Service supported a national park in Delaware 
that focused on our early colonial history leading up to 
Delaware's being the first State to sign the Constitution, 
which the current Administration continues to support to this 
day. The Delaware Delegation has introduced legislation that 
establishes a national park within the State every Congress 
since 2009. This legislation is supported by the Governor, 
State legislators, and local officials.
    I want to thank Chairman Hastings and others on the 
Committee for granting us a hearing on our bill during the last 
Congress, and I am hopeful we can make even more progress 
during the next 2 years.
    One of the sites included in our legislation is called the 
Woodlawn Trustees Property. This 1,100-acre historic property 
spans the border between Delaware and Pennsylvania, and has 
been privately owned for public recreation for 100 years. Once 
owned by William Penn and eventually preserved by Quaker 
industrialist William Poole Bancroft, the land is now a rural 
retreat for the 5 million people that live within a 20-mile 
radius of the property.
    Last year, the Woodlawn Trustees, who have been the long 
owners of the property, announced the eminent need to sell the 
land. Fortunately, a private foundation, the Mount Cuba Center, 
stepped in with an incredible donation in excess of $20 million 
to ensure this significant property would be protected forever, 
and at no cost to the Federal Government.
    However, given the various limitations related to the 
management and transfer of the property, it was critical that 
we move quickly. Our delegation worked tirelessly to get our 
national park legislation passed before the end of last year. 
But although progress was made, we were not successful. 
Fortunately, the process for national monument dedication 
stipulated in the Antiquities Act provided the right path to 
achieve our goal quickly, while incorporating public and 
stakeholder input.
    I want to express my appreciation in particular to my 
friend, Congressman Pat Meehan, who represents the Pennsylvania 
district on the other side of the border, for his interest and 
support of the national monument dedication.
    Delaware finally became part of the National Park System 
when the President designated the First State National 
Monument. The First State National Monument contains the 
donated Woodlawn Trustees' property, three properties in the 
town of Old New Castle, and the Dover Green. Combined, these 
properties tell the story of the role that Delaware played in 
the establishment of the Nation, as well as Delaware's 
settlement by the Swedes, Finns, Dutch, and English.
    Without a path set forth by the Antiquities Act, we, in all 
likelihood, would have been unable to realize this tremendous 
gift that is the Woodlawn property. Furthermore, the Park 
Service was able to obtain all five properties included in the 
national monument without any cost to the taxpayer, and will 
manage them using existing staff and resources.
    I will continue to press forward with the delegation with 
our legislative efforts to ensure Delaware becomes the final 
State in the Union to have a national park by passing our 
legislation. However, achieving the national monument status is 
a huge step for us toward this goal.
    I look forward to working with all of you on our 
legislation, and to advance it, pass it in the House and in the 
Senate, and have it signed by the President. I want to thank 
you again for the opportunity to testify this morning.
    Mr. Bishop. Representative, we are happy to have you here. 
Thank you for coming and testifying. Just for the record, you 
are still only a monument, you are not a park yet. You need us 
to get the park.
    Mr. Carney. That is correct.
    Mr. Bishop. But it is a lot nicer having you than Senator 
Carper coming here to testify in front of us. So we will be 
working with you still on that status area.
    [Laughter.]
    Mr. Carney. I am happy to do that. He is pretty dogged 
about it. Thank you, Chairman.
    Mr. Bishop. Thank you for joining us. And, once again, same 
offer. If you would like to join us here on the dais, stick 
around, you are welcome to do that and participate.
    So, we heard from our new Representative Carney, now we are 
going to hear from the old, Representative Scott from Virginia.
    Mr. Scott. Thank you.
    Mr. Bishop. If you would like to, you are also recognized 
for 5 minutes to speak on this particular topic, if you wish.

      STATEMENT OF THE HON. ROBERT C. ``BOBBY'' SCOTT, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Scott. Thank you, Mr. Chairman, Ranking Member 
Grijalva, members of the Subcommittee. Thank you for allowing 
me time to discuss the importance of the Antiquities Act of 
1906. I would like to recognize a mayor from my district, Mayor 
Molly Joseph Ward of Hampton, who will be testifying later. And 
also I would like to recognize the hard work of Mark Perreault 
of the Citizens for Fort Monroe National Park and Philip 
Adderley of the Contraband Historical Society, for their hard 
work.
    On November 1, 2011, after years of local advocacy, 
President Obama signed a proclamation designating Fort Monroe 
in Hampton, Virginia, a national monument. This was the 
President's first exercise under the Antiquities Act, and was a 
culmination of years of hard work by citizens of Hampton 
conservation and historical preservation groups, Hampton City 
Council, Governor McDonnell, bipartisan colleagues of the 
Virginia congressional district and our staffs, and, most of 
all, Mayor Ward. Mayor Ward has been a tireless advocate for 
Fort Monroe becoming a unit in the National Park System. And I 
wouldn't be here testifying today on the importance of the 
Antiquities Act if it were not for her efforts.
    The history of Fort Monroe is older than the history of the 
United States, and her story is the story of our Nation. In 
1609, the first English settlers to arrive in the Americas 
established a fortification at Old Point Comfort, the 
forerunner of the current-day Fort Monroe. And in 1619, the 
first Africans arrived at Old Point Comfort, marking the 
beginning of slavery in America.
    During the Civil War, nearly 250 years after the birth of 
slavery, Fort Monroe was witness to the end of slavery. Three 
enslaved African Americans escaped and made their way to the 
Union Army-controlled Fort Monroe, seeking freedom. General 
Benjamin Butler received a request from the slave owners to 
return the slaves, but he issued an order classifying all 
slaves who reached the Union lines as contraband of war. And 
just like rifles and ammunition, contraband did not have to be 
returned. And, as such, the slaves became free men. It was with 
this action that slavery was first abolished. Fort Monroe, 
built on the land where slavery first arrived in the United 
States, became known as Freedom's Fortress as thousands of 
slaves made their way to freedom.
    After the Civil War, Fort Monroe remained a critical 
military asset supporting and training the United States Army 
until its closure in 2011 as a result of the 2005 BRAC 
Commission. Hampton Roads community was united in its support 
for the inclusion of Fort Monroe in the National Park System, 
and we worked together at the local, State, and Federal levels 
to urge the President to take immediate action to establish 
Fort Monroe as a national monument.
    However, the legislation being considered before the 
Subcommittee today attacks the very law that served Virginia 
and the Hampton Roads area very well. The Antiquities Act was 
put to perfect use in coordination with State and local 
authorities in breaking congressional gridlock by establishing 
Fort Monroe National Monument. By some estimates, at the time 
it was thought that, without the Antiquities Act, it would have 
taken nearly a decade for Congress to have taken any action on 
Fort Monroe.
    The bills presented today, which would require 
congressional approval of the President's use of the 
Antiquities Act would make it unnecessarily difficult for 
action to be taken in communities similar to Hampton Roads by 
subjecting worthwhile historical sites and other national 
treasures to congressional gridlock and delays. Even with the 
overwhelming support from communities in Virginia, we faced 
significant roadblocks in establishing Fort Monroe as a 
national park. And I am grateful on behalf of the citizens of 
Hampton and the rest of the community that we did not need to 
find out how long it would have taken for Congress to act on 
this issue.
    While it may be technically possible for the President to 
abuse the Antiquities Act, history has shown that Presidents 
over the past 100 years from both parties have used good 
judgment when exercising the power granted to them. While I can 
only speak to my experience with the law, our community was 
afforded plenty of opportunities for comment in transparent and 
open approach provided by the Administration. Without this law, 
the future of Fort Monroe may still be uncertain, and the long-
run future of Freedom's Fortress would be unknown, even as we 
commemorate the 150th anniversary of the Civil War.
    Again, Mr. Chairman, I would like to thank the Subcommittee 
for the opportunity to be here, and would like, Mr. Chairman, 
for a letter from the NAACP--I think it has been faxed to your 
office--to be included in the record of today's proceedings.
    Mr. Bishop. Without objection, so ordered.
    [The letter from the NAACP submitted for the record by Mr. 
Scott follows:]
  Letter Submitted for the Record by the National Association for the 
            Advancement of Colored People, Washington Bureau
                                                    April 15, 2013.
The Honorable Rob Bishop,
U.S. House of Representatives,
Washington, DC 20215.
The Honorable Raul M. Grijalva,
U.S. House of Representatives,
Washington, DC 20215.
               naacp support for a robust antiquities act
    Dear Chairman Bishop and Ranking Member Grijalva:

    On behalf of the NAACP, our Nation's oldest, largest and most 
widely-recognized grassroots-based civil rights organization, I am 
writing to express our organization's strong support for the ability of 
the President of the United States to protect our natural, historic, 
and cultural heritage through a robust Antiquities Act. We want to 
encourage the use of the Antiquities Act to preserve cultural and 
historical landmarks, such as the Harriet Tubman Underground Railroad 
National Monument in Maryland and the Charles Young Buffalo Soldiers 
National Monument in Ohio, both of which were recently given national 
monument designation, as they will add to our Nation's ability to 
understand and appreciate our rich history and heritage.
    As with past designations, in both the cases of the Harriet Tubman 
Underground Railroad National Monument and the Charles Young Buffalo 
Soldiers National Monument, the President responded to desires of local 
communities who want their history and environment to be preserved. 
Congress should add to this land protection legacy, not ignore or 
weaken it. The NAACP continues to support any effort that promotes the 
preservation of the history of our diverse cultural and natural 
landscape.
    Under the terms of the Antiquities Act, following a monument 
designation, site-specific management plans are put into place with 
input from local jurisdictions and agencies, community groups and the 
public. Thus the local community and the relevant State continue to 
have input on the use of the land. The result, as studies have 
repeatedly shown, is that national monuments support local economic 
growth.
    Again, I strongly urge this Congress to protect the Antiquities Act 
and move to ensure its continued success. Thank you in advance for your 
attention to the NAACP position.
            Sincerely,
                                         Hilary O. Shelton,
                                 Director, NAACP Washington Bureau,
                     Senior Vice President for Advocacy and Policy.
                                 ______
                                 
    Mr. Bishop. Thank you. Thank you also, Representative 
Scott. Bobby, same offer. If you would like to stay, you are 
welcome to. You realize I have had no takers so far, so it is 
up to you.
    [Laughter.]
    Mr. Scott. Thank you so much.
    Mr. Bishop. But we appreciate you being here.
    Representative Gosar, you are kind of in the same category 
of our last two speakers. You do have a bill, which is 1495, 
which is similar to my 1459, if you are dyslexic. But it also 
deals with the topic of antiquities, but it is not actually on 
our agenda today. So I will offer you the same offer we did 
with the last gentlemen. If you would like to talk specifically 
to antiquities, mention your bill, as well, for 5 minutes, if 
that is agreeable.
    Dr. Gosar. That would be absolutely great, Chairman.
    Mr. Bishop. Thank you. You are recognized, Representative 
Gosar.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. First I would like to take the opportunity this 
morning to thank Chairman Rob Bishop and Ranking Member 
Grijalva for allowing me to participate in today's hearing.
    Rural Arizona communities like the one in my congressional 
district depend on the multiple use of public lands for their 
livelihoods. As I travel throughout my district, my 
constituents express concerns about access to our public lands 
at nearly every corner of my 50,000-plus square-mile district. 
These concerns range from the ability to develop domestic 
sources of energy, timber harvesting, grazing, hunting, 
fishing, camping, and family recreation.
    Too often we find that some Federal land designations are 
causing endless bureaucratic delays, litigation and 
restrictions that could completely lock up much of the large 
and needed store of wealth and recreational opportunities our 
vast system of public lands can provide.
    In a district like mine dominated by federally administered 
lands, these burdens disproportionately stifle economic 
productivity, leading to some of the highest unemployment rates 
in the country, and in some cases threatening the ability of 
the affected communities to provide public education and other 
basic services to their residents.
    There is a reason the ability to set aside Federal land 
generally rested with Congress. These Federal land designations 
have significant direct impacts on our constituents. Sometimes 
these access-restrictive designations are absolutely necessary 
for the preservation of our natural and historic treasures. 
Unfortunately, in other instances, the designations are 
counterproductive and cause more harm than good. Congressional 
authority to establish these land designations is an integral 
part of the transparent and public process that will ensure a 
designation is not only appropriate, but accepted by our 
constituents.
    Without a doubt, many of the existing national monuments 
are extremely valuable natural and historic treasures. Eighteen 
national monuments, many with major contributions to our 
tourism economy, are located in my State. I appreciate the need 
for protection of sites. However, the public deserves the 
opportunity to have their voices heard on any land designation 
that may restrict their right to access.
    This is why I believe it is critical this Congress reforms 
the national monument designation process. While it is 
extremely important to protect our country's natural and 
historic treasures, no President, regardless of what party he 
or she belongs to, should have the power to unilaterally 
declare how lands in our States are managed.
    The legislation I introduced, the Arizona Land Sovereignty 
Act, and the many other bills being discussed today aim to 
ensure that the designation of national monuments has an open 
and transparent process. I believe a protection similar to what 
Wyoming secured in 1950, after Jackson Hole was incorporated 
into a large Grand Teton National Park, or a more tailored 
reform to the law such as Chairman Bishop's Ensuring Public 
Involvement in the Creation of a National Monument Act, would 
guarantee a transparent process for the national monument 
decisions. That is all my constituents want. The people should 
be a part of the land designation decisions.
    Thank you again for allowing me to participate in today's 
hearing. I think it is pretty telling that a coalition of 
Members from nearly every Western State have legislation being 
considered today. While these land management decisions may not 
garner headlines with the media, they mean a lot to the day-to-
day lives of our constituents. We should ensure they are a part 
of that process.
    I look forward to continuing to work with my colleagues 
here today to reform the national monument designation process, 
and I yield back the balance of my time.
    [The prepared statement of Dr. Gosar follows:]
Prepared Statement of The Honorable Paul A. Gosar, a Representative in 
                   Congress From the State of Arizona
    Good morning,
    First I would like to take this opportunity to thank Chairman Rob 
Bishop for allowing me to take part in today's hearing.
    Rural Arizona communities, like the ones in my Congressional 
District, depend on the multiple-use of public lands for their 
livelihoods. As I travel throughout my district, my constituents 
expressed concerns about access to our public lands at nearly every 
corner of my 50,000+ square mile district. These concerns range from 
the ability to develop domestic sources of energy, timber harvesting, 
grazing, hunting, fishing, camping and family recreation
    Too often we find that some Federal land designations are causing 
endless bureaucratic delays, litigation and restrictions that could 
completely lock-up much of the large and needed store of wealth and 
recreational opportunities our vast system of public lands can provide. 
In a district like mine, dominated by federally administered lands, 
these burdens disproportionately stifle economic productivity, leading 
to some of the highest unemployment rates in the country and in some 
cases threatening the ability of the affected communities to provide 
public education and other basic services to their residents.
    There is a reason the ability to set aside Federal land generally 
rested with Congress. These Federal land designations have significant 
direct impacts on our constituents. Sometimes these access restrictive 
designations are absolutely necessary for the preservation of our 
natural and historic treasures. Unfortunately, in other instances, 
these designations are counterproductive and cause more harm than good. 
Congressional authority to establish these land designations is an 
integral part of the transparent and public process that will ensure a 
designation is not only appropriate, but accepted by our constituents.
    Without a doubt many of the existing National monuments are 
extremely valuable natural and historic treasures. Eighteen National 
Monuments, many with major contributions to our tourism economy, are 
located in my State. I appreciate the need for protections of sites; 
however, the public deserves the opportunity to have their voices heard 
on any land designation that may restrict our right to access.
    This is why I believe it is critical this Congress reforms the 
National Monument designation process. While it is extremely important 
to protect our country's natural and historical treasures, no 
President, regardless of what party he belongs to, should have the 
power to unilaterally declare how lands in our States are managed.
    The legislation I introduced, the Arizona Land Sovereignty Act, and 
the many other bills being discussed today aim to ensure that the 
designation of National Monuments has an open and transparent process. 
I believe a protection similar to what Wyoming secured in 1950 after 
Jackson Hole was incorporated into an enlarged Grand Teton Nation Park, 
or a more tailored reform to the law, such as Chairman Bishop's 
Ensuring Public Involvement in the Creation of National Monuments Act, 
would guarantee a transparent process for National Monument decisions.
    That is all my constituents want. The people should be a part of 
land designation decisions.
    Thank you again for allowing me to participate in today's hearing. 
I think it is pretty telling that a coalition of members from nearly 
every Western State have legislation being considered today. While 
these land management decision may not garner headlines with the media, 
they mean a lot to the day today lives of our constituents. We should 
ensure they are part of the process.
    I look forward to continuing to work with my colleagues here today 
to reform the National Monument designation process.
                                 ______
                                 
    Mr. Bishop. Thank you, Representative Gosar.
    Representative Labrador, you actually have a bill that is 
on our agenda today to treat Idaho fairly, even though it 
wasn't done when the boundaries were being made. So here is 
your chance to strike for Idaho sovereignty. You are recognized 
for 5 minutes on your bill.
    Mr. Labrador. We should have kept Utah.
    [Laughter.]

  STATEMENT OF THE HON. RAUL R. LABRADOR, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Labrador. Chairman Bishop, Ranking Member Grijalva, 
thank you for the opportunity to discuss my bill today, H.R. 
1439, the Idaho Land Sovereignty Act. When I spoke about this 
legislation in the last session of Congress, I stated that 
there are two things that Presidents do their last days in 
office: one, they declare new monuments; and, two, they pardon 
convicted criminals. Both leave the public with a bad taste in 
their mouth.
    Just as decimation of wilderness areas is a congressional 
prerogative, I believe the designation of national monuments 
should also be subject to congressional oversight. Sadly, this 
statement continues to be accurate. And thus, I have 
reintroduced the Idaho Land Sovereignty Act this session of 
Congress.
    The legislation is simple. New national monuments could not 
be established by the President in Idaho, absent congressional 
authorization. I have also heard it said--and I even heard it 
said today--and seen it written that since the Antiquities Act 
originated under a Republican President, and since Republican 
Presidents have continued to use it, and since Republican 
congresses have sometimes not complained about it, that 
Republicans in Congress shouldn't object to its use. I reject 
that argument. It holds no merit.
    I oppose the imposition of any Federal lock-ups of Idaho's 
Federal lands without congressional oversight. I opposed 
Republicans on the wars in Afghanistan and Iraq, I oppose 
Republicans on the Patriot Act, and I would oppose a 
Republican's efforts to lock up land in Idaho under the 
Antiquities Act. Bad policy is bad policy, whether enacted by a 
Republican or a Democrat.
    Since the Federal Government owns almost 70 percent of the 
land in Idaho, this legislation is vital. Congress must be 
involved in any move to restrict more lands in Idaho from 
private use. Additionally, access to Federal lands for multiple 
uses should not be curtailed. The designation of new monuments 
in Idaho could reduce tourism, motorized recreation, and 
ranching in Idaho. The establishment of public lands is 
important, but they should not be established in a manner that 
circumvents congressional oversight and locks up public lands.
    I look forward to working with you and my colleagues to 
pass this legislation in this session of Congress to help 
protect Idaho. Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Labrador follows:]
 Prepared Statement of The Honorable Raul R Labrador, a Representative 
                  in Congress From the State of Idaho
    Mr. Chairman, Ranking Member Grijalva, I commend you for convening 
this important hearing today regarding my bill H.R. 1439, the Idaho 
Land Sovereignty Act.
    There are two things that Presidents do their last days in office: 
declare new monuments and pardon convicted criminals. Both leave the 
public with a bad taste in their mouth. Just as designation of 
wilderness areas is a congressional prerogative, I believe the 
designation of national monuments should also be subject to 
congressional oversight.
    My legislation would prohibit any presidential administration from 
imposing new monument designations in the State of Idaho. Clearly the 
Obama Administration has given us numerous reasons to believe they need 
to be reined in with their job killing regulations. However, these 
concerns are not only limited to the current administration.
    In January of 2001 the outgoing Clinton Administration shocked 
Western States with its outrageous land grabs that were done via 
Executive order. We in the West remember this very well and we are not 
going to allow anything like it to happen again. More recently Interior 
Secretary Salazar and his agency, on December 23, 2010, reminded us 
that Federal agencies still believe they can circumvent Congress to 
lock up public lands without specific Congressional action.
    In my State of Idaho, approximately 67 percent of all lands are 
owned by the Federal Government. Of that, 4,522,717 acres are 
wilderness, making Idaho the State with the most acres of designated 
wilderness areas. For that reason, it is critically important that 
Idahoans continue to access our Federal lands for the multiple uses 
they were designed. It is unacceptable to make lands off-limits through 
any process that is not an act of Congress.
    The Bureau of Land Management asserts that livestock grazing is a 
major activity on public lands in Idaho. Actually, 800,000 AUMs (Animal 
Unit Months) of livestock forage are authorized annually in Idaho under 
BLM management. Livestock grazing is outlined in the Federal Land 
Policy and Management Act and the Taylor Grazing Act as being among 
authorized multiple-uses. The economic losses to Ranchers who have 
traditionally been good stewards of BLM grazing leases would be 
immeasurable.
    Tourism and motorized recreation are important industries in Idaho. 
If new monument designations are established, the potential for road 
closures and limited OHV access has the potential to be detrimental to 
the local economies.
    I urge my colleagues to protect our authority and the power of 
Congressional oversight. If any administration were to impose 
additional restrictions to the public lands in Idaho through the 
designation of new monument areas, the detriment to my State could be 
vast. Administrative land grabs prohibit stakeholder input at the 
detriment to our rural economies.
    Mr. Chairman, I don't oppose public lands. I simply oppose efforts 
by an out-of-touch administration to forcibly lock up public lands with 
no Congressional oversight.
                                 ______
                                 
    Mr. Bishop. Thank you. We appreciate your testimony.
    We will now turn to Representative Stewart. You have 758. 
This is the first one you have had in this Subcommittee?
    Mr. Stewart. Yes, sir. Close.
    Mr. Bishop. You are recognized to speak on your bill.

   STATEMENT OF THE HON. CHRIS STEWART, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Stewart. Thank you, Mr. Chairman. Good morning. And, as 
I begin my testimony, I recognize that we may be flaying a dead 
horse here, but please allow me to have my few minutes to flay 
away, as well. And I would like to be clear that I am not 
adverse to the use of the Antiquities Act. I am adverse to the 
abuse of the Antiquities Act. And, Mr. Chairman, as you have 
already stated, no State better understands the effects of the 
abuse more than our State, the State of Utah.
    Exhibit number one, of course, is the more than 1.8 million 
acres claimed by the Federal Government in the Grand Staircase-
Escalante National Monument, an action that was clearly beyond 
the intent of the Act. And the purpose of H.R. 758, the Utah 
Land Sovereignty Act, is to prohibit the further extension and 
establishment of national monuments in Utah, except by express 
authorization of Congress.
    For those not from the West, and I recognize there are many 
in the room who may not be familiar with the term ``land 
sovereignty,'' it is a term that we use to describe the fact 
that--again, as has been stated--over half of the land in the 
West is owned and controlled by the Federal Government. That 
means that these States don't really have sovereignty in the 
way that States in the rest of the country may, where many 
Eastern States have 4 percent of their land controlled by the 
Federal Government.
    Federal ownership makes it very difficult for Western 
States to fund education and other public services. And I have 
had many, many conversations with county commissioners and 
other leaders who are struggling to provide for education and 
roads and basic necessities for their citizens without a tax 
base on which they can rely on.
    Over 66 percent of the State of Utah is controlled by the 
Federal Government in the form of national forest or wilderness 
parks, BLM land, and national monuments. And I have several 
counties, as Representative Chaffetz has already mentioned, in 
my district as well that are more than 90 percent controlled by 
Federal Government.
    National monuments have a unique place among Federal land 
designations, and the Antiquities Act of 1906 gives the 
President the power to simply declare land a national monument. 
But the intent was to protect archeological resources in the 
Southwest and to limit monuments to small geographical areas. 
The law requires that the size of the monument in all cases 
shall be confined to the smallest area compatible with the 
proper care and management to be protected. But again, using 
Grand Staircase as an example, 1.8 million acres is clearly 
beyond that original intent.
    And perhaps the most brazen example, Mr. Chairman, as you 
mentioned, was President Clinton and the creation of the 
Staircase. And when you consider the economic impacts, after 
nearly 17 years the local populations understand that the 
promised economic boom associated with the monuments has not 
materialized. They realize that they have lost access to local 
amenities and to extractive economic activities. They also 
lament the loss of an estimated $1 trillion worth of fossil 
fuels that lies under the monument.
    Now we have reason to believe--and this is what is so 
concerning for many of us--that President Obama is considering 
using the Antiquities Act again to unilaterally designate large 
monuments in my home State. There has got to be a better way of 
doing this. The application of the Antiquities Act is not the 
best way to protect the beautiful lands of my State, while 
taking the local interest into account. That again is the 
purpose of H.R. 758, to exempt Utah from the overreach of the 
Antiquities Act.
    And I look forward to further questions or conversations 
regarding it. And with that, Mr. Chairman, I yield back my 
time. Thank you.
    Mr. Bishop. Thank you, Representative Stewart. You now have 
the Grand Staircase-Escalante Monument in your district.
    Mr. Stewart. Yes, sir.
    Mr. Bishop. Fix it.
    [Laughter.]
    Mr. Bishop. OK, good. Representative Daines, I appreciate 
you being here, you also have a bill here that deals with 
Montana. And you also have the rest of Idaho's land. So you are 
recognized, if you would like to talk about your particular 
piece of legislation.
    Mr. Daines. We would like that panhandle back, if we could 
get it.
    [Laughter.]

    STATEMENT OF THE HON. STEVE DAINES, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF MONTANA

    Mr. Daines. Mr. Chairman, Ranking Member Grijalva, thank 
you for the opportunity to testify here today.
    I am a fifth-generation Montanan, an active sportsman, and 
I understand our local communities thrive off our unique 
landscape. It is only fitting, though, however, that this act 
is called the Antiquities Act. It is an ancient act that needs 
reform. And this is not about debating the merit or the intent 
of that act. It is about reforming it and bringing it to the 
21st century.
    In Montana we have some great national monuments. In fact, 
growing up I remember going to Little Big Horn Battlefield, 
Custer's last stand. To put that in perspective, that is about 
700 acres in size. Or there is Pompey's Pillar. As you drive 
along the Yellowstone River in Eastern Montana you can drive by 
where Captain William Clark engraved his name on a sandstone 
formation there. It is a great national monument. But it is 50 
acres in size.
    The challenge here is we have seen the abuse of this act. 
President Clinton, at the end of his Administration--and it is 
a bipartisan abuse; we want to reform Government that applies 
to both Democrats and Republican Presidents--at the end of 
President Clinton's Administration he passed a National 
Monuments Act that took nearly 500,000 acres in the Missouri 
Breaks and declared it a national monument, including 80,000 
acres of private land.
    What really got the folks in Montana upset was when there 
was a leaked memo from President Obama and Secretary of the 
Interior Salazar that had a proposed national monument 
designation that was going to be in excess of a million acres. 
This was connecting the 2.5 million acres of land from Canada's 
Grasslands National Park through Northern Montana's Hi-Line 
down to the Bitter Creek Wilderness Study Area as a national 
monument. In the middle of that proposed designation are 
significant parcels of private land. I can tell you. The 
gymnasiums in Eastern Montana were full of concerned citizens--
ranchers, farmers, those who had grown up, had generations of 
roots there--around what the Federal Government was going to do 
here to take this land away from the use of the public.
    And as many have said here before, what we are talking 
about is the need for the people to have a voice in this 
process. It is the abuse of a process, what should be in the 50 
to 500-acre range parcels, looking at the original intent of 
the Act, that has been transformed into hundreds of thousands 
of acres, and even millions of acres, in terms of declarations 
of national monuments.
    My bill, the Montana Land Sovereignty Act, insists that our 
State and our local communities must be part of this 
discussion, just like Wyoming. Any bill which has the potential 
to impact land management must be locally driven, not 
spearheaded in Washington by the stroke of a President's pen. 
That is how we do business back home in Montana.
    We also understand in my home State of Montana that our 
resources and the resource use must be done responsibly. We 
understand the importance of protecting our resources for 
future generations. I am grateful that we have national 
monuments that I can show my children. When Lewis and Clark 
came through, they left their mark. When Custer had his last 
stand, we can take our kids now and see that national monument. 
But the way it is being used today is abusive, and we need to 
reform this ancient Antiquities Act.
    We understand the importance of preserving for future 
generations. We know that Montanans who use these and live on 
the land every day best understand how to best protect these 
resources, and my bill ensures their voices are heard. I yield 
back the balance of my time.
    Mr. Bishop. Thank you, Representative Daines. I appreciate 
that. I appreciate all the Representatives who have given their 
testimony so far. And not a whole lot have stayed with us, but 
we are here.
    Well, I would like to invite the second panel to come up, 
if they could at this time, and take seats at the table. They 
would include Mr. John Jones, who is a Commissioner from Carbon 
County in Utah, who does a great job, even if he is a Democrat; 
Dave Eliason, who is the Public Lands Council from the Utah 
Cattlemen's Association. Mr. Eliason, is that the proper way 
you say your name?
    Mr. Eliason. Close enough.
    Mr. Bishop. Or is it Eliason?
    Mr. Eliason. Eliason.
    Mr. Bishop. Then we got to talk afterwards, because I have 
those relatives in my family, and they all say ``Eliason,'' 
too. So, good.
    And also, Mayor Holly Ward--Molly. I am sorry. Molly Ward, 
who is the Mayor of Hampton, Virginia.
    We would like to thank all of you for being here, and we 
appreciate you taking the time to come and join us with your 
testimony.
    For some of you who have been here before, so you 
understand the clock system that is here, your written 
testimony is part of the record. Anything you actually would 
like to add to that will be part of the record. We would like 
you to give an oral summation of the record, or anything 
additional to it.
    The clock is in front of you, 5 minutes is the maximum 
time, though, we have for each witness. When it hits 1 minute 
it will turn yellow. And that means, like every yellow light 
you see, you quickly speed up because when it goes to red again 
I would like you to quit.
    So, Commissioner, if we can turn to you first and have your 
testimony, I appreciate you coming out here.
    Mr. Jones. Thank you.
    Mr. Bishop. And you are recognized for 5 minutes.

   STATEMENT OF JOHN JONES, COMMISSIONER, CARBON COUNTY, UTAH

    Mr. Jones. I would like to thank Chairman Hastings, 
Subcommittee Chairman Bishop, Ranking Members Markey and 
Grijalva, and members of the Natural Resource Committee for the 
opportunity to be here today. My name is John Jones and I am a 
Democratic Commissioner from Carbon County, Utah. I am the 
President of the Utah Association of Counties, and I currently 
serve on the Public Lands Steering Committee of the National 
Association of Counties. I am representing NACo here today, and 
would ask that a separate statement by Ryan Yates of NACo be 
included in today's hearing record.
    Mr. Bishop. Without objection, it will be done.
    [The prepared statement by Ryan Yates submitted for the 
record by Mr. Jones follows:]
 Prepared Statement of Ryan R. Yates, Associate Legislative Director, 
                    National Association of Counties
    Chairman Bishop, Ranking Member Grijalva, we appreciate the 
Subcommittee scheduling this timely hearing to examine legislative 
modifications to the Antiquities Act. Thank you for giving counties and 
the National Association of Counties (NACo) the opportunity to submit 
testimony for the record. On behalf of NACo and the members of its 
Western Interstate Region (WIR), we applaud your efforts to provide to 
provide transparency and accountability in the designation of national 
monuments.
    NACo supports congressional revisions of the Antiquities Act of 
1906 (16 U.S.C. 431) to require that any Presidential national monument 
proclamation be subject to NEPA review and congressional approval.
    Historically, the Antiquities Act was enacted as a response to 
concerns over theft from and destruction of archaeological sites and 
was designed to provide an expeditious means to protect Federal lands 
and resources. It authorizes the President to proclaim national 
monuments on Federal lands that contain ``historic landmarks, historic 
and prehistoric structures, and other objects of historic or scientific 
interest.'' The Act requires the President to reserve ``the smallest 
area compatible with the proper care and management of the objects to 
be protected.''
    President Theodore Roosevelt first used the authority in 1906 to 
establish the Devil's Tower in Wyoming. Presidents have created more 
than 120 monuments, totaling more than 70 million acres. President 
Franklin Delano Roosevelt used the Act 28 times and President Carter 
bestowed monument status on 56 million acres in Alaska. President 
Clinton used the Act 22 times to create 19 new monuments and enlarge 3 
others to designate 5.9 million acres; most were done during his last 
year in office. He cited frustration with the slow pace of legislated 
land protection as a justification.
    The lack of local or congressional input and approval of a 
President's monument designation often generates much controversy at 
the local level. Yet, under the terms of the Act, the President is not 
required to consult with local and State authorities. Under current 
law, the President is not obligated to seek congressional advice and 
consent prior to declaring lands national monuments.
    The potentially detrimental effects of a monument designation 
frequently cause local residents, county elected officials, and State 
legislators, who have valid interests in the lands, to push Congress 
for reform. Counties should be fully involved as affected partners in 
any process to designate Federal land use designations which restrict 
public use. Congress and Federal agencies should coordinate with 
affected counties when considering special land use designations that 
impact the use and status of public lands. NACo strongly opposes 
Federal land management agency actions that limit access and multiple 
use of lands that otherwise would be available to the public (i.e. 
Wilderness Study Areas, ``Wild Lands,'' or any other de facto 
wilderness designation).
    Accordingly to a leaked memo from the Department of the Interior, 
the Administration is considering using the Antiquities Act to 
designate or expand additional monuments in Arizona, California, 
Colorado, Montana, New Mexico, Oregon, Utah, and Washington. Under 
current law, the President could use the Antiquities Act to designate 
millions of acres of land without first notifying Congress or the 
affected Governors, tribes, or communities involved. Moreover, there is 
no requirement to determine what the impact of the designation would be 
upon local communities.
    Congressional oversight and full NEPA analysis and public review 
are necessary to curb last minute Presidential designations of large 
tracts of lands for National Monument status, some of which some are 
high value energy areas and important to the American people for 
resources above and beyond that of just recreation.
    An important policy reason for passage of the National 
Environmental Policy Act (NEPA) was to have large tracts of public 
lands scrutinized by public and local government input before 
significant Federal action is taken on those lands. That policy applies 
should apply to large land tracts being proposed presidentially for 
National Monument designation. Recent use of the Antiquities Act for 
large tract designation has not provided reasonable notice to State and 
local governments, and has gone well beyond Congress' original intent 
to designate the smallest portion of land needed to represent certain 
objects of historic and scientific interest.
    Federal consultation with State, county, and tribal governments 
should be required prior to the development and designation of any 
national monument. Critical multiple use activities will be preserved 
if Presidential National Monument declarations are subjected to a 
transparent public review and approval process. This will preserve the 
economic base, prosperity and livelihood of many western counties and 
their economies.
    In conclusion, the designation of Federal land as defacto 
wilderness, national monument, or similar designation without input 
from local governments can lead to devastating reductions in economic 
activity the loss of jobs in resource dependent communities. NACo 
appreciates the House Natural Resources Committee's attention to this 
important issue and looks forward to assisting the Unites States 
Congress to develop and enact much needed reform to the Antiquities 
Act.
                                 ______
                                 
    Mr. Jones. Thank you. We have lived in actual fear of this 
raw executive power ever since President Clinton, Vice 
President Gore, in a cowardly infamous act, failed to engage 
the people of Utah in a public process. Nor did they give 
advance notice to the State's locally elected officials, 
Governor, or congressional delegation when they flew to 
Arizona's Grand Canyon National Park, and, with a stroke of a 
pen, designated 1.7 million acres the Grand Staircase-Escalante 
National Monument, one of the largest monuments ever 
designated.
    That single action deprived the people of Utah and the 
Nation of its cleanest, low-sulfur, high Btu coal supply across 
the vast Kaiparowits Plateau. An actual loss to the taxpayers 
was conservatively estimated to exceed $2 billion in lost 
mineral lease royalties, and 60 percent of the known coal 
reserves in our State. This blatant political move has 
subsequently devastated the economies of Kane and Garfield 
Counties, and the lifestyles of the people who live there. It 
has greatly damaged the reputation of my beloved Democratic 
Party in rural Utah, and has demolished the Department of the 
Interior's credibility in a State in which they are the 
majority landholder.
    Most importantly, if recreation and tourism, which are 
supposed to accompany the designation of national monuments, 
are such an economic benefit to local communities, why is the 
school system in Escalante, Utah, in the heart of the Grand 
Staircase, about to close, due to continual decline in local 
population since the monument was created?
    Please don't insult rural communities with the notion that 
mere designation of national monuments and the restriction on 
the land which follow are in any way a substitute for long-
term, wise use of the resources and the high wages and economic 
certainty which those resources provide.
    While originally designed to protect against legitimate 
threats to artifacts and historic and geological sites, 
President Clinton abused that law by invoking the act 22 times 
to create 19 new monuments and enlarge 3 others. Many of these 
proclamations were made unilaterally and without public 
involvement or local support.
    Similarly, a leaked secret memo from the Department of the 
Interior in 2010 stated that the current Administration was 
considering using the Antiquities Act to designate or expand 
additional monuments in California, Colorado, New Mexico, 
Oregon, Utah, Washington, and Arizona. This memo was cooked up 
in the same back rooms as the Grand Staircase, and has spread 
those same fears across the West. As a result of this most 
recent threat, the American Farm Bureau, the National Beef and 
Cattlemen's Association, Public Lands Council, and my own 
resolution before the National Association of Counties have all 
been enacted urging either congressional approval or 
involvement or requiring NEPA compliance by the President, or 
both, before any additional national monuments are designated.
    Fortunately, many of these communities listed in the secret 
memo pushed back when they learned President Obama's secret 
plans. And, as a result, President Obama has stayed away from 
those sites, and instead has used the Antiquities Act to create 
five new national monuments in areas which there seems to be 
local support. When the President designated these five sites 
he touted public involvement and local support for his 
decision. As a fellow Democrat, I appreciate President Obama's 
openness and outreach to the local communities.
    However, Mr. Chairman, this bill or some of the other bills 
under consideration today, how can we make certain that future 
Presidents adhere to the same principles and public involvement 
and local support? The fact is, Mr. Chairman, unilateral 
executive branch use of the Antiquities Act to restrict land 
use under the guise of protecting land without NEPA compliance 
or congressional or State legislature approval represents 
excessive power in the hands of the President. The act must be 
amended to include one or all of these steps to limit the power 
and assure adequate prior public involvement and support.
    All the proposals and solutions, such as is contained in 
each of these bills before the Committee today, should be 
considered. There is not one silver bullet. While a bill 
banning monuments on a State-by-State basis, as is in the case 
of Wyoming and Alaska, or legislation requiring congressional 
approval of State legislative approval are preferred, 
Congressman Bishop's bill requiring NEPA compliance is at 
least, minimum, a good start. It ensures public involvement, 
protects private property, and places some restraints on the 
President's executive branch power, something that must be 
codified so future Presidents follow President Obama's and not 
President Clinton's lead. Why is public policy to prevent 
further wrongdoings to States like Utah, which have in the past 
been ambushed by heavy-handed misuse of this power?
    Again, I would like to thank you for including the 
accompanied statement by the National Association of Counties 
today with my recommendations. Thank you.
    [The prepared statement of Mr. Jones follows:]
  Prepared Statement of John Jones, Commissioner, Carbon County, Utah
    I would like to thank Chairman Hastings, Subcommittee Chairman 
Bishop, Ranking Members Markey, Grijalva and members of the Natural 
Resources Committee for the opportunity to be here today.
    My name is John Jones and I am a Democratic Commissioner from 
Carbon County, Utah. I am the President of the Utah Association of 
Counties and I currently serve on the Public Land Steering Committee of 
the National Association of Counties.
    I am representing NACo here today and would ask that a separate 
statement by Mr. Ryan Yates of NACo be included in today's hearing 
record.
    Thank you. Mr. Chairman.
    In Utah we have been wary of Presidential misuse of the Antiquities 
Act to create National Monuments from the day Lyndon Johnson designated 
Capitol Reef National Monument in the waning hours of his Presidency in 
January 1969.
    We've lived in actual fear of this raw Executive power ever since 
President Clinton and Vice President Gore, in a cowardly, infamous act, 
failed to engage the people of Utah in a public process nor did they 
give advance notice to the State's locally elected officials, Governor, 
or congressional delegation when they flew to Arizona's Grand Canyon 
National Park, and with the stroke of a pen, designated the 1.9 million 
acre Grand Staircase Escalante National Monument--one of the largest 
monuments ever designated.
    That single action deprived the people of Utah and the Nation of 
its cleanest low sulfur-high BTU coal supply across the vast 
Kaiparowits Plateau. Actual loss to taxpayers was conservatively 
estimated to exceed $2 billion in lost mineral lease royalties and 60 
percent of the known coal reserves in our State.
    This blatant political move has subsequently devastated the 
economies of Kane and Garfield Counties and lifestyles of the people 
who live there, greatly damaged the reputation of my beloved democratic 
party in rural Utah, and has demolished the Department of the 
Interior's credibility in a State in which they are the majority 
landowner. Most importantly, if recreation and tourism, which are 
supposed to accompany the designation of national monuments, are such 
an economic benefit to local communities, why is the school system in 
Escalante, Utah in the heart of the Grand Staircase, about to close due 
to a continual decline in local population since the monument was 
created?
    Please don't insult rural communities with the notion that the mere 
designation of National Monuments and the restrictions on the land 
which follow are in any way a substitute for long-term wise use of the 
resources and the solid high wage jobs and economic certainty which 
those resources provide.
    While originally designed to protect against legitimate threats to 
artifacts and historic and geological sites, President Clinton abused 
the law by invoking the Act 22 times to create 19 new monuments and 
enlarge three others. Many of these proclamations were made 
unilaterally and without public involvement or local support.
    Similarly, a leaked secret memo from the Department of the Interior 
in 2010 stated that the current Administration was considering using 
the Antiquities Act to designate or expand additional monuments in 
California, Colorado, New Mexico, Oregon, Utah, Washington and Arizona. 
This memo, cooked up in the same backrooms as the Grand-Staircase, has 
spread those same fears across the West.
    As a result of this most recent threat, the American Farm Bureau, 
the National Beef/Cattlemen's Association, Public Lands Council and my 
own resolution before the National Association of Counties have all 
been enacted urging either congressional approval and involvement or 
requiring NEPA compliance by the President, or both, before any 
additional National Monuments are designated.
    Fortunately, many of the communities listed in the secret memo 
pushed back when they learned of President Obama's secret plans. And as 
a result, President Obama has stayed away from those sites and instead 
has used the Antiquities Act to create five new National Monuments in 
areas in which there seems to be local support. When the President 
designated these five sites, he touted public involvement and local 
support for his decisions. As a fellow Democrat, I appreciated 
President Obama's openness and outreach to the local communities. 
However, without Chairman Bishop's bill or some of the others under 
consideration today, how can we be certain that future President's 
adhere to the same principles of public involvement and local support?
    The fact is, Mr Chairman:
    1. Unilateral executive branch use of the Antiquities Act to 
restrict land use under the guise of protecting such land without NEPA 
compliance or congressional or State legislatures' approvals represents 
excessive power in the hands of the President. The Act must be amended 
to include one or all of these steps to limit that power and assure 
adequate prior public involvement and support;
    2. All proposals and solutions, such as is contained in each of the 
bills before the Committee today should be considered. There is not one 
silver bullet;
    3. While a bill banning monuments on a State-by-State basis as is 
the case in Wyoming and Alaska, or legislation requiring congressional 
approval or State legislative approval are preferred, Congressman 
Bishop's bill requiring NEPA compliance is at a minimum, a good start. 
It ensures public involvement, protects private property, and places 
some restraints on the President's executive branch power; something 
that must be codified so future Presidents follow President Obama's, 
and not President Clinton's lead, wise public policy to prevent further 
wrongdoings to States like Utah, which have in the past been ambushed 
by heavy-handed misuse of this power.
    Again, thank you for including the accompanying statement by the 
National Association of Counties in the record along with my statement 
of recommendations.
                                 ______
                                 
            Question Submitted for the Record to John Jones
    Question. Should we include a requirement in each of these bills 
that Congress must hold a hearing and vote on every bill designating a 
monument?
    Answer. Yes, I believe we should never be ruled by the stroke of 
one man's pen. After all, American citizens across this Nation elect 
Representatives so that their voice will be heard in Washington. And 
would you not agree there is more knowledge combined among 435 
representatives than could possibly be gained by one. We should live in 
fear of the day that we would allow one man's pen to go unchallenged! 
Thank you for all you do as we work together to keep America free.
                                 ______
                                 
    Mr. Bishop. Thank you for your testimony, Commissioner.
    We will turn to Mr. Eliason from the Public Lands Council, 
the Cattlemen's Association. You are recognized for 5 minutes.

 STATEMENT OF DAVE ELIASON, SECRETARY/TREASURER, PUBLIC LANDS 
             COUNCIL, UTAH CATTLEMEN'S ASSOCIATION

    Mr. Eliason. Chairman Bishop, Ranking Member Grijalva, and 
members of the Subcommittee, thank you for inviting me to 
testify today on ensuring public involvement in the creation of 
the National Monuments Act and the Utah Land Sovereignty Act. 
My name is Dave Eliason. I am representing the Public Lands 
Council, Utah Cattlemen's Association, and the National 
Cattlemen's Beef Association. I currently serve as Secretary-
Treasurer of the Public Lands Council, I am an active member of 
the National Cattlemen, and an immediate past President of the 
Utah Cattlemen's Association.
    I am a fourth-generation rancher headquartered in Box Elder 
County, Utah. My wife and I and our five children run cattle on 
both BLM and Forest Service allotments. Box Elder County, like 
many counties across the West, depend heavily on forage on 
public lands to sustain a thriving ranching industry, which is 
the base of our economy. The roughly 22,000 ranchers who hold 
Federal grazing permits on 120 million acres of productive 
private land and manage more than 250 acres of public land, 
nearly 40 percent of all beef cattle in the West, and 50 
percent of sheep in the Nation, spend some time on public 
lands.
    Our industry is crucial to the management of the land and 
resources. Ranchers are the ones on the ground day in and day 
out, watching over the land and resources on which their 
livelihoods depend. Well-managed grazing improves the health of 
the range, it keeps private lands in ranching instead of 
housing developments.
    Historically, special land designations like national 
monuments have had a strangling effect on livestock grazing. 
Even when grazing is ``grandfathered in,'' it usually happens--
the land management agency gradually reduces permitted grazing, 
or the cost of doing business on these restricted acres become 
prohibitive and ranchers cease to use them. In 1996, President 
Bill Clinton's 2 million acre Grand Staircase-Escalante 
National Monument has resulted in land use plan amendments that 
have so far closed 4 full-time grazing allotments and portions 
of 4 others. More closures are being considered as we speak.
    Grazing is just one of the multiple uses being negatively 
impacted by that decision. Communities in the area are 
suffering. Schools are shutting down. And according to research 
done by Utah State University and Southern Utah University, per 
capita income in counties within the monument in 2011 were 
$1,800 below that of comparable counties.
    In addition to Chairman Bishop's bill, we support 
Representative Stewart's bill, the Utah Land Sovereignty Act, 
to prevent any further designation from being permitted to harm 
our State's citizens and our economy. Utah is still suffering 
from the Grand Staircase Monument designation. And after losing 
2 million acres, Utah says enough is enough. We have done our 
share.
    Given the cultural, economic, and environmental impact that 
national monuments have, the livestock industry fully supports 
Representative Bishop's proposal to require that the NEPA 
process be applied prior to national monument designations. 
Though we often see NEPA misused and abused in order to put a 
stop to productive multiple-use activities, in this instance I 
truly believe that the law needs to be applied consistently.
    A monument designation is a major Federal action impacting 
the human environment. If it didn't have an impact, why make it 
a designation in the first place? By providing an analysis of 
true impacts, and allowing for public review and comment, and 
providing for local Government input as required by NEPA, our 
bill will improve the likelihood that a fully informed decision 
will be made when it comes to national monuments.
    We can argue until we are blue in the face about the 
inappropriateness of the President's using the Antiquities Act 
to designate de facto wilderness over millions of acres at a 
time without congressional consent. But until Congress does 
something to put a stop to it, this unfairness will continue.
    Thank you, Representative Bishop, Representative Stewart, 
and the other honorable Members here today who are leading the 
charge to reform the Antiquities Act to the benefit of the 
ranchers, the natural resource, and to our western communities. 
Thank you very much for allowing me to testify.
    [The prepared statement of Mr. Eliason follows:]
Prepared Statement of David Eliason, Secretary/Treasurer of the Public 
    Lands Council, Immediate Past President of the Utah Cattlemen's 
  Association, and Member of the National Cattlemen's Beef Association
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Subcommittee:
    On behalf of the Public Lands Council (PLC), the National 
Cattlemen's Beef Association (NCBA), and Utah Cattlemen's Association 
(UCA), I appreciate the opportunity to voice to the Subcommittee on 
Public Lands and Environmental Regulation our strong support for the 
Ensuring Public Involvement in the Creation of National Monuments Act 
and the Utah Land Sovereignty Act. I am a fourth generation cattle 
rancher out of Snowville, Utah. I, my wife and our five children are 
permitted to run cattle on both BLM and Forest Service allotments, 
which are crucial to the viability of our operation and allow us to 
keep our private land in ranching.
    I currently serve as Secretary and Treasurer of PLC, the only 
national organization dedicated solely to representing the roughly 
22,000 ranchers operating on Federal lands. PLC has as affiliates sheep 
and cattle organizations from 13 Western States, as well as three 
national affiliates: NCBA, the American Sheep Industry Association 
(ASI) and the Association of National Grasslands (ANG). NCBA, of which 
I am an active member, is the Nation's oldest and largest national 
trade association for cattlemen and women, representing more than 
140,000 cattle producers through direct membership and their state 
affiliates. UCA, of which I am the immediate past President, since 
1890, has represented Utah's cattlemen in the legislative arena, 
educated producers and consumers alike, and provided a forum for 
producers to network. PLC, NCBA and UCA are producer-directed and work 
to preserve the heritage and strength of the industry by providing a 
stable business environment for their members.
    Generally, special lands designations such as national monuments 
have a damaging impact on the public land grazing industry. Even though 
existing grazing practices are often ``grandfathered in,'' over time 
the trend is undeniable: grazing numbers are reduced either by direct 
agency decisions, or because the cost of doing business in the 
designated area simply becomes prohibitive. To begin, I feel it's 
important to highlight the importance of maintaining the viability of 
our industry. Public land ranchers own nearly 120 million acres and 
manage more than 250 million acres of land under management of the 
Federal Government. These ranchers provide food and fiber for the 
Nation, protect open spaces and critical wildlife habitat, and promote 
healthy watersheds for the public. Wildlife depends on the habitat and 
water sources these ranchers provide. In the West, where productive, 
private lands are interspersed with large areas of rockier, less 
desirable public lands, biodiversity of species depends greatly on 
ranchland. Should these ranchers go out of business, their private 
lands would likely be converted to uses less hospitable to wildlife. 
Well-managed grazing encourages healthy root systems and robust forage 
growth--and reduces the risk of catastrophic wildfire, one of the 
West's biggest threats to wildlife, watersheds, property and human 
life.
    Countless communities across the West depend upon the existence of 
the public lands rancher. Approximately 40 percent of beef cattle in 
the West, and half of the Nation's sheep, spend some time on Federal 
lands. Without public land grazing, use of significant portions of 
State and private lands would necessarily cease, and our industry would 
be dramatically downsized--threatening infrastructure and the entire 
market structure. I know that many communities across the West depend 
just as mine does on the tax base, commerce, and jobs created by the 
public lands grazing industry.
    The abuse of Presidential national monument designations under the 
Antiquities Act of 1906 has taken a heavy toll on multiple uses such as 
livestock grazing on Federal lands. While the law was enacted as a 
response to concerns over theft from and destruction of archaeological 
sites, it has been used to put millions of acres essentially off-limits 
to multiple use. This certainly was not the intent of the Act, which 
authorizes the President to proclaim national monuments on Federal 
lands that contain ``historic landmarks, historic and prehistoric 
structures, and other objects of historic or scientific interest'' and 
requires him to reserve ``the smallest area compatible with the proper 
care and management of the objects to be protected.'' It was never 
intended to create sweeping designations such as President Clinton's 
1.9 million-acre Grand Stair-Case Escalante National Monument (GSENM) 
or President Obama's recent 243,000-acre Rio Grande del Norte National 
Monument in New Mexico.
    Take the GSENM in my home State as a case study: designated in 
1996, the GSENM covers almost 2 million acres of Utah along the Arizona 
border. Communities in and around the monument have seen cultural and 
economic losses and school closures. According to research by Utah 
State University and Southern Utah University, per-capita income in 
counties within the GSENM in 2011 was $1,799 below that of comparable 
counties (Politics, Economics, and Federal Land Designation: Assessing 
the Economic Impact Land Protection--Grand Staircase-Escalante National 
Monument). The monument's impact on livestock grazing serves as a case 
study to explain this disparity. In 1999, land use plan amendments 
stemming from the designation closed four allotments and portions of 
four other allotments to grazing. More closures are being considered as 
we speak.
    Untold new and inappropriate monument designations appear to be on 
the horizon. An Interior Department document leaked on February 14, 
2010 indicated that the Obama Administration may be seeking to 
designate 14 new monuments under the Antiquities Act, amounting to more 
than 13 million acres of land, spanning from Montana to New Mexico. 
Judging by our past experience with monuments and other special 
designations, this would be devastating to our Nation's Federal lands 
ranchers and a burden to rural economies across the West.
    Congress must not allow such abuse by the executive branch to 
continue. This is why we support Rep. Rob Bishop's Ensuring Public 
Involvement in the Creation of National Monuments Act. In addition to 
requiring that all proposed monuments of 5,000 acres or larger undergo 
National Environmental Policy Act (NEPA) review, it also requires a 
study of the potential loss of Federal and State revenue; places limits 
on the number of monuments one President may designate in a given State 
during a 4-year term (without congressional approval); and prevents the 
inclusion of private property in monument declarations without the 
prior approval of property owners. We believe the NEPA requirements of 
the Act are the crux of Rep. Bishop's legislation.
    Enacted in 1969, NEPA requires that Federal agencies include, in 
every ``major Federal action significantly affecting the quality of the 
human environment,'' a detailed statement on the environmental impacts 
of the proposed action; alternatives to the proposed action; the 
``relationship between local short-term uses of man's environment and 
the maintenance and enhancement of long-term productivity;'' and ``any 
irreversible and irretrievable commitments of resources'' that would be 
involved with the proposed action's implementation. In other words, as 
stated by the Council for Environmental Quality (CEQ), NEPA's 
regulatory agency, ``NEPA requires Federal agencies to consider 
environmental effects that include, among others, impacts on social, 
cultural, and economic resources, as well as natural resources'' 
(http://ceq.hss.doe.gov/nepa/Citizens_Guide_Dec07.pdf). These findings 
are provided to the public for review and comment.
    NEPA is not action-forcing; it rather compels the Federal 
Government to collect and disseminate information. However, NEPA 
regulations also allow for State and local agencies (via ``cooperating 
agency status'') to work side-by-side with the lead agency to identify 
important issues, determine what scientific data are needed for the 
analysis, help to form alternatives, analyze the impacts of the 
alternatives, and give input on selecting the final alternative (A 
Beginner's Guide to Cooperating Agency Status, 2012). NEPA requires 
agencies to document any inconsistencies with local land use plans, 
along with an explanation of how those inconsistencies would be 
reconciled.
    We believe NEPA deliberations should be applied prior to the 
designation of national monuments. After all, if designating a monument 
of 5,000 acres or more does not constitute a ``major Federal action,'' 
then what is the purpose of making any designation at all? Surely it 
has meaning; the Antiquities Act calls for the ``proper care and 
management of the objects to be protected.'' The President, in making 
the designation, therefore is asserting the need to ``protect'' 
objects, which also implies that current protections are not 
sufficient.
    How would applying NEPA be beneficial in the national monument 
designation process? Currently, no considerations cultural, economic or 
environmental impacts are afforded to those designations. Local 
governments are not notified or consulted. The President wills a 
designation, and it is so. Though we believe (as might Rep. Bishop) 
that NEPA has been overused and implemented in situations that do not 
fall under the original intent, we also believe that allowing for 
public review and comment and providing an analysis of the true impacts 
of a monument designation will improve the likelihood that beneficial 
decisions will be made.
    As Congress asks the administration to consider the impacts of 
monument designations, we feel it is important to also shed light on 
the fact that despite NEPA's best intentions, ``true'' impacts are not 
always reflected in current NEPA analysis--especially with regard to 
economies. The agencies' persistent use of purposefully misleading 
``economic'' data and tools provided by what we argue is a biased 
group, Headwaters Economics, has led to inaccurate NEPA analysis that 
has done much harm to local economies. Headwaters claims that special 
land designations have positive impacts on local communities. However, 
third parties have not been able to duplicate Headwaters' results. In 
fact, professors at Utah State University and Southern Utah University 
have found the direct opposite: wilderness designations, when compared 
to analogous non-wilderness counties, have overall lower per capita 
income, lower total payroll, and lower total tax receipts (The Economic 
Cost of Wilderness, 2011). Wilderness may be the designation that most 
closely resembles national monument status--only it is rightfully 
preceded by congressional deliberation.
    The negative impacts of sweeping national monuments cannot be 
denied. This is why I, on behalf of UCA, am also testifying to the 
importance of the Utah Land Sovereignty Act to myself and fellow 
Utahans. This legislation would exempt Utah, similarly to the State of 
Wyoming, from the Antiquities Act, thereby preventing any future 
national monuments within its borders. PLC and NCBA support all States 
taking similar action to protect their citizens from overreach by the 
Federal executive branch.
    Thank you for your consideration of my testimony. Keeping ranchers 
in business is good policy for conservation of both private and public 
land. By preventing de facto wilderness designations by the executive 
branch, the Ensuring Public Involvement in the Creation of National 
Monuments Act and the Utah Land Sovereignty Act will promote greater 
stability for the livestock industry, which will allow for the 
continuation of the broad public benefits provided by ranchers, who are 
the caretakers of our public lands and providers of food and fiber for 
the Nation.
                                 ______
                                 
           Questions Submitted for the Record to Dave Eliason
  ``ensuring public involvement in the creation of national monuments 
                act'' and ``utah land sovereignty act''
    Question. Mr. Andy Groseta testified before this Committee on H.R. 
1345 a bill related to National Forest management. Under oath, he told 
the Committee that the Public Lands Council had never sought to recover 
money from the Federal Government as Plaintiffs in litigation. Please 
provide information to the Committee on attorneys' fees and costs that 
PLC has sought to capture through the Equal Access to Justice Act.
    Answer. The Subcommittee inquires about PLC's request for and 
collection of attorneys' and other court fees under the Equal Access to 
Justice Act (EAJA). As reported in Mr. Groseta's recently-submitted 
responses to questions from the Subcommittee, clarification is in order 
with regard to his response to the Honorable Rep. Grijalva's in-person 
inquiry as to whether PLC, as a plaintiff, had ever received fee 
reimbursement under EAJA. Mr. Groseta correctly responded ``no'' to 
this question. PLC did, as a defendant-intervenor, formally seek EAJA 
fees in 1999 in Forest Guardians v. U.S. Forest Service. This request 
was granted.
    Aside from the 1999 instance, there are two ongoing cases where PLC 
has included EAJA fees in the initial complaint (Federal Forest 
Resource Coalition et al. v. Vilsack et al. and Idaho Wool Growers 
Association et al. v. Vilsack et al.). However, to date, PLC has not 
filed a Motion seeking EAJA fees in either case, because doing so would 
be premature given the status of litigation in both.
    It is important to draw a distinction between PLC's rare requests 
for EAJA reimbursement and the abuse of EAJA regularly practiced by 
wealthy radical environmental groups. We have consistently honored the 
law's intent, which is to protect small entities in cases where they 
must defend themselves against actions of the Federal Government. As 
such, we have supported legislation that would disqualify for payments 
organizations whose net worth exceeds $7 million. This $7 million-or-
less requirement currently applies to for-profit entities and 
individuals, but does not apply to wealthy ``nonprofits''. 
Additionally, we have supported measures to require groups or 
individuals to have direct monetary interest in the Federal 
Government's action in order to be eligible for payments. We also 
support capping the exorbitant attorney fees these groups claim to be 
owed, which are sometimes as much as $700 per hour.
    We have also supported efforts to make EAJA payments transparent to 
the public. According to attorney Karen Budd-Falen, in 2011, 12 
environmental groups alone had filed more than 3,300 lawsuits over the 
previous decade, recovering over $37 million in EAJA funds. Budd-Falen 
said that this was a conservative estimate, as accounting of EAJA 
expenditures has been scant, at best. With no accounting of these 
payments, abuse by well-heeled groups will only increase.
    Question. Please provide documentation of lost grazing permits or 
modified grazing permits in the Grand Staircase Escalante National 
Monument.
    Answer. Attached is a copy of the 1999 land use plan amendment that 
resulted in extensive grazing reductions and closures on the Grand 
Staircase Escalante National Monument (GSENM). The final decision 
cancelled 4,253 AUMs through allotment closures, cancelled 1,377 AUMs 
through reductions in livestock numbers, and reduced grazing by 418 
AUMs for the creation of ``grass banks'' for purposes of emergency and 
approved research.
    Allotments that were closed include: Escalante River (2,422 AUMs), 
McGath Point (60 AUMs), Saltwater Creek (120 AUMs), and Steep Creek 
(318 AUMs). Portions of other allotments were closed within the 
Escalante River: Big Bowns Bench (698 AUMs), Deer Creek (83 AUMs), and 
Phipps (140 AUMs). Cottonwood pasture of Deer Creek allotment was also 
closed (112 AUMs).
    A ``grass bank,'' only for use in emergencies or for research 
purposes, was made of the remaining AUMs on the Phipps allotment (the 
rest being closed to grazing, as mentioned above); the Little Bowns 
Bench allotment (130 AUMs); and the Wolverine pasture (148 AUMs) of the 
Deer Creek allotment. Reductions in livestock numbers were made on the 
Moody allotment (799 AUMs eliminated), Wagon Box Mesa allotment (126 
AUMs eliminated), and Big Horn allotment (453 AUMs eliminated). The 
portion of the Big Bowns Bench allotment that falls outside the 
Escalante River area was also reduced to 750 AUMs (an estimated 50-AUM 
reduction, not counting the abovementioned closure of a portion of the 
allotment, amounting to a loss of 698 AUMs).
    Also of interest is the attached report of the National Riparian 
Service Team (NRST), which was commissioned by BLM in 2011 after 10 
years of failed attempts to complete a Grazing Management Environmental 
Impact Statement (EIS) on the GSENM. Amongst the reasons for this 
failure, as identified by NRST in its situation assessment, was the 
fact that decisions on the monument no longer seem to be in local 
managers' hands. The report stated there was a ``power dynamic at play 
as evidenced by the long and well-known history of successfully 
circumventing local BLM management decisions through appeals to higher 
levels of the agency or Department, or to members of Congress by local, 
regional and national dissatisfied constituents.'' The local BLM 
personnel ``readily acknowledged the difficulty this pose[d] for them 
in matters such as sustaining trespass actions against operators, or 
other permit actions, and in the types of choices they [made] in 
various environmental documents.'' The report cited ``little reason for 
managers to aggressively pursue entry into controversial decision-
making venues when it [was] likely that they [would] be overturned by 
higher authorities who [had] not been part of the process. Transparency 
and credibility of Federal decision-making are casualties of this 
approach to management. People asked why they would invest time and 
effort into a process that will simply be overturned based on favorable 
political connections of one group or another.''
    We believe local collaboration and decision-making is essential to 
good management. NRST's findings on this matter should be considered in 
future potential monument designations.
    Note: The Escalante Management Framework Plan Amendment and 
Decision Record (March 15, 1999) referred to in question 2, has been 
retained in the Committee's official files.
                                 ______
                                 
    Mr. Bishop. Thank you for coming back here, and thank you 
for your testimony. We will now turn to Mayor Ward. Didn't 
quite travel as far as these two gentleman have, but we 
appreciate you being here. We recognize you for 5 minutes to 
give your presentation.

 STATEMENT OF HON. MOLLY JOSEPH WARD, MAYOR, CITY OF HAMPTON, 
                            VIRGINIA

    Ms. Ward. All right. Thank you, Chairman Bishop. Thank you 
for the opportunity to testify before the House Natural 
Resources Subcommittee on Public Lands and Environmental 
Regulation on the eight proposed bills seeking to end, amend, 
and inhibit or limit the President's authority to create new 
national monuments. I am Molly Joseph Ward, Mayor of the City 
of Hampton, Virginia. I served on the Fort Monroe Authority 
Executive Committee and Board for almost 3 years, and led the 
effort to establish a national monument at Fort Monroe on 
behalf of that board.
    The Antiquities Act helped to permanently protect one of 
the least known and most important sites in America, Fort 
Monroe. Fort Monroe has served in the defense of Americans 
since the first fortification was built there in 1619, but is 
most important for the events early in the American Civil War.
    In 1861, three brave enslaved men, Frank Baker, Sheppard 
Mallory, and James Townsend, escaped the Confederate Army and 
fled in a small boat to Fort Monroe. There, the Union commander 
declared these men as contraband of war, an unusual legal 
maneuver that provided refuge for the three men and, in turn, 
heralded the beginning of the end of slavery in America. Over 
the course of the Civil War, over a half-a-million African 
Americans would liberate themselves, following in the footsteps 
of those first three men and the Emancipation Proclamation 
became inevitable.
    In 2005, the Base Realignment and Closure Commission 
recommended the closure of Fort Monroe, and the departure of 
the Army was scheduled for September 2011. Early in the 
process, Citizens for Fort Monroe National Park, represented 
here today by Philip Adderley, began a campaign to keep Fort 
Monroe as a grand public place. In the summer of 2011, Senators 
Warner and Webb, and Congressman Rigell introduced legislation 
to create the Fort Monroe National Historic Park. The Hampton 
City Council, the Fort Monroe Authority, and countless other 
organizations and governmental bodies endorsed the concept of a 
national park unit.
    With the economic downturn and the loss of over 3,000 jobs 
on the base, the future of Fort Monroe is of the highest 
importance to our region. With the Army departure approaching, 
we were running out of time to keep the fort open to the public 
and economically sustainable. As a result, we began to explore 
a designation via the Antiquities Act, and commenced a citizen 
engagement plan. The Administration responded with three public 
meetings, which were attended by nearly 1,000 people, all in 
unanimous support of the inclusion of Fort Monroe in the 
National Park System.
    Virginia's Governor, its Senators, and the entire Hampton 
Road Congressional Delegation, which was bipartisan, united to 
ask the President to take immediate action. We were overjoyed 
when the President designated Fort Monroe as a national 
monument on November 1, 2011.
    Since the monument designation, public use has exceeded our 
expectations. Visitation to the Casemate Museum at Fort Monroe 
has doubled, and 120 homes have been rented. Commercial spaces 
at the fort are being occupied by the State Police, the 
Virginia Fire Marshall, and the Marine Services Corporation. 
There are plans for establishing a new residential school for 
science, technology, engineering, and math at the fort. The 
National Park Service and the Fort Monroe Authority have each 
begun their respective planning efforts. The benefits of 
heritage tourism have begun to take hold in our community, now 
that Fort Monroe is on the map. The value of the national 
monument designation, in terms of our economic recovery, has 
been enormous.
    I appear before this Committee today to stand in opposition 
of all the bills limiting the Antiquities Act. It would be 
imprudent to alter a law that has protected our most important 
historic, cultural, and natural resources for over 100 years. 
The bills before the Committee today are a reaction to a 
problem that, our experience says, does not exist. The bills 
would prejudge the needs and desires of other communities and 
foreclose on an important tool used to preserve America's 
precious national treasures. Additional requirements or 
limitations on the Antiquities Act would have created 
uncertainty that could have hampered the economic progress and 
certainty around the future of Fort Monroe.
    Before the 2005 BRAC, the city could not have predicted we 
would want or need a national monument designation. Even with 
the overwhelming support of the community and local law, local 
and statewide elected leaders, we faced substantial roadblocks 
for successful designation by Congress. Thank you--thanks so 
the Antiquities Act, the vision of a grand public space and the 
preservation of our country's diverse and rich history at Fort 
Monroe will be realized.
    I hope that our experience will help convince you that 
creating additional requirements or limits to the Antiquities 
Act could harm communities who cannot and should not wait a 
decade or longer for Congress to take action. Thank you.
    [The prepared statement of Ms. Ward follows:]
     Prepared Statement of The Honorable Molly Joseph Ward, Mayor, 
                       City of Hampton, Virginia
    Thank you for the opportunity to testify before the House Natural 
Resources Subcommittee on Public Lands and Environmental Regulation on 
the eight proposed bills seeking to end, amend, inhibit or limit the 
President's authority to create new national monuments from existing 
Federal land under the Antiquities Act of 1906. I am Molly Joseph Ward, 
Mayor of the City of Hampton, Virginia. I served on the Fort Monroe 
Authority Executive Committee and Board for almost 3 years, and led the 
effort to establish a National Monument at Fort Monroe on behalf of 
that board.
    The Antiquities Act is a law that has preserved some of the most 
important and cherished places in our country for the benefit of 
current and future generations. In 2011, this law helped to permanently 
protect a site that has been critical to the security of our Nation for 
over 400 years located within the City of Hampton, Virginia. The 
Antiquities Act is an absolutely vital tool that has provided this 
Nation, and very recently my own community, with protected public lands 
that boost our local economies and protect the history, culture and 
open space that define us as a nation. For these reasons, I am here 
today to testify in opposition to all eight bills.
    Fort Monroe is one of the least known and most important historic 
places in America. The original Jamestown settlers recognized the 
strategic importance of the site and built the first fortification, 
Fort Algernourne there in 1609. In 1619, the fort was the landing site 
of the first enslaved people brought to the British Colonies, and the 
first African American child, William Tucker, was born at the fort.
    It has functioned as an assembly, training, and embarkation point 
for U.S. forces in the Seminole Wars and during the suppression of Nat 
Turner's Rebellion, the Black Hawk War, the Mexican War and the Civil 
War. Fort Monroe protected important military and civilian resources 
located inland during both World Wars. Edgar Allen Poe was stationed 
and wrote poetry at the fort. Robert E. Lee lived at Fort Monroe and 
helped design its stone fortress, the largest stone moat fortification 
in America, and his first son was born at Fort Monroe. It was where 
Abraham Lincoln planned the assault on Norfolk--the last time a sitting 
President was actively engaged in a military operation. Near its shores 
is where the battle of the Ironclads took place. Jefferson Davis was 
imprisoned in a Fort Monroe casemate for 2 years after the end of the 
Civil War. Harriet Tubman spent time at Fort Monroe. Most importantly, 
in 1861 Fort Monroe became the birthplace of the Civil War-era freedom 
movement that would seal the fate of the end of slavery.
    On the day that Virginia voted to secede from the Union, May 23, 
1861, three enslaved men, Frank Baker, James Townsend and Sheppard 
Mallory, were in forced service to the Confederates across the harbor 
when they learned that their master was planning to send them deeper 
into the South to work on Confederate fortifications. Fearful they 
would never see their families again, the three escaped and fled in a 
small boat in the dark of night to seek sanctuary at Fort Monroe. The 
next day, May 24, 1861 the Union commander, General Benjamin Butler, 
declared these men as ``contraband'' of war, an unusual legal maneuver 
that provided refuge for the three men and refused to return them to 
their owner. Soon over 10,000 enslaved Americans sought their own 
freedom by going to Fort Monroe and over the course of the Civil War, 
more than 500,000 African American women, children, and men would 
liberate themselves, following in the footsteps of those first three 
freedom seekers at Fort Monroe, leading to one of the war's most 
extraordinary--and overlooked--chapters. Benjamin Butler's Contraband 
Slave decision was the beginning of the end of slavery in the United 
States as no longer could the country go back to the status quo of 
slavery before the war. There were now one half a million people who 
had crossed Union lines and were free. Fort Monroe became ``Freedom's 
Fortress'' and the Emancipation Proclamation became inevitable. 
Lincoln's secretaries and biographers Hay and Nicolay would write ``Out 
of this incident seems to have grown one of the most sudden and 
important revolutions in popular thought which took place during the 
whole war.''
    In addition to being significantly historic, Fort Monroe is 
astoundingly beautiful. It is comprised of 565 acres, 170 historic 
buildings and 200 acres of natural resources including 8 miles of 
waterfront, 3.2 miles of which fronts the Chesapeake Bay.
    In 2005, the Base Realignment and Closure Commission recommended 
Fort Monroe for closure, and the Army's departure was set for September 
15, 2011. The Commonwealth of Virginia established the Fort Monroe 
Federal Area Development Authority (now the Fort Monroe Authority) to 
serve as the ``Local Redevelopment Authority'' to study, plan and 
recommend the best use of the resources that would remain when the Army 
left because most of the lands were scheduled to revert to the 
Commonwealth of Virginia.
    Early in the process, Citizens for Fort Monroe National Park 
represented here today by Mark Perrault and Philip Adderly, began a 
campaign to support of providing public access to the historical and 
recreational features of Fort Monroe and its continued status as a 
``grand public place'' for Americans including but not limited to a 
large-scale open-space park. In the summer of 2011 Senator Mark Warner 
and Senator Jim Webb introduced the Fort Monroe National Historical 
Park Establishment Act in the Senate and Congressman Scott Rigell 
introduced similar legislation in the House. Hampton City Council, the 
Fort Monroe Authority, and countless other organizations, including the 
entire 17 city and county delegation of the Hampton Roads Military and 
Federal Facilities Alliance endorsed the concept of a National Park 
unit at the fort.
    Nevertheless, with the Army departing in September of 2011, we were 
running out of time for a solution to keep Fort Monroe open to the 
public and at the same time, economically sustainable.
    We needed quick action to create certainty about the future of Fort 
Monroe but after repeated trips to Washington swift reaction by 
Congress seemed unlikely. With our country's economic downturn, and the 
loss of over 3,000 jobs on the base, the economic future of Fort Monroe 
was and is of the highest importance to the citizens of the region. As 
a result, we began to explore the possibility of an Antiquities Act 
designation by the President. We had an urgent need to preserve the 
truly vital history of the fort as well as its natural beauty.
    We commenced a citizen engagement and outreach plan and our 
community was united in support for the inclusion of Fort Monroe in the 
National Park System by either legislative or administrative 
designation. We worked together at the city, region and State levels to 
urge the President to take immediate action and establish Fort Monroe 
as a national monument. In June 2011 there was a meeting with Secretary 
of the Interior Ken Salazar and 150 local stakeholders. In late July 
the National Park Service held two public meetings which were attended 
by over 800 concerned citizens seeking to preserve Fort Monroe's 
diverse and important history. We had unanimous support at each of the 
three public meetings for the inclusion of Fort Monroe as a unit of the 
National Park System. The City of Hampton, Governor Bob McDonnell, 
Senators Warner and Webb, Congressman Rigell, Congressmen Bobby Scott, 
Rob Wittman, Randy Forbes and Former Governor and now Senator Tim Kaine 
were all united in asking the President to take immediate action. We 
were overjoyed when the President fulfilled our request on November 1, 
2011 and designated key buildings, historic areas and miles of pristine 
frontage on the Chesapeake Bay as part of Fort Monroe National 
Monument, not only preserving one of the most important historic sites 
in America, but creating a great urban park and generating excitement 
that has already led to new investments in our City. Our park 
superintendent was on the ground in Hampton 2 days after the President 
signed the Antiquities Act order and Fort Monroe National Monument was 
up and running almost immediately.
    The entire region was overjoyed by the President's decision. The 
City hosted a public celebration the following Friday at the fort 
complete with a live band and fireworks.
Opposition to the Bills Before the Subcommittee
    I appear today before this Committee to stand in opposition of all 
of the bills limiting the Antiquities Act and the ability of the 
President to take immediate and decisive action to establish national 
monuments. Additional requirements or limitations on such a designation 
would have created uncertainty that could have hampered the economic 
progress and certainty around the designation of Fort Monroe that we 
could ill afford. Amending the Antiquities Act would take the guts out 
of a law that has helped protect some of America's most beloved and 
well known national treasures and tourist attractions. It would be 
imprudent to alter a law that has served Americans to protect our most 
important historic, cultural and natural resources for over 100 years. 
Ten years ago we could not have predicted we would want or need a 
national monument designation for Fort Monroe or even know that such a 
law existed. Since then we have discovered that is a critical tool for 
the preservation and economic sustainability for our city and region. 
The bills before the Committee today would prejudge the needs and 
desires of other American communities and foreclose on an important 
tool by which they can enhance the economic opportunities and the 
enjoyment of historic and natural resources in their area.
    In the February 2011 America's Great Outdoors (AGO) Report, the 
President recommends the implementation of a transparent and open 
approach to new national monument designations tailored to engaging 
local, State and national interests. The Obama Administration has kept 
their word outlined in the AGO Report and they have worked with local 
governments, Congress and Governors before making a designation. In the 
case of Fort Monroe, we were all working together to ask the President 
to make the designation. I would also like to recognize the similar 
experiences that other communities in our Nation have enjoyed in recent 
years with protecting their own sites of historic, cultural and natural 
significance via this important public lands protection tool.
    The bills up for discussion this morning will have but one result: 
to prevent other communities from enjoying the same kind of success 
that our nine communities recently enjoyed.
    These bills before the Committee today are a reaction to a problem 
that does not exist. The Antiquities Act should remain unchanged and 
ready for the current and future presidents to respond quickly when 
Congress is unable to proceed quickly.
    Requiring Congressional approval for new national monuments amounts 
to the complete repeal of the Antiquities Act. Congress already has the 
authority to designate national monuments and has done so dozens of 
times. Further, if Congress disapproves of a national monument 
designation under the Antiquities Act, it is well within its power to 
eliminate the designation. Of course, history has shown that 
designations are rarely if ever overturned. On the contrary, Congress 
has repeatedly and regularly validated designations created under the 
Antiquities Act by upgrading monuments to National Park status or 
expanding monuments, including ones perceived initially to have some 
controversy, like the Grand Canyon for example. Twenty-four of our 59 
National Parks started out as national monuments and were later 
upgraded by Congress to parks. In fact, the only public lands bill that 
the 112th Congress passed was to upgrade Pinnacles National Monument, 
designated by President Theodore Roosevelt, to a National Park.
    By requiring Congressional approval, these bills would not only 
strike at the core of the Antiquities Act, but would further imperil 
the chances that locally driven conservation proposals have for 
success. The perception throughout much of the country is that Congress 
is unable to act to protect our national treasures, and Fort Monroe 
provides a compelling case study for why this belief is so widespread. 
With the support that this proposal enjoyed from both parties locally 
and in DC, it was the ideal candidate for swift congressional approval. 
Its failure underscores one of the key roles that the Antiquities Act 
can play in responding to community needs and requests. In fact, no 
legislation protecting new cultural sites, historic sites, or sensitive 
public lands were passed by Congress last year, despite bi-partisan 
support for many of them.
    The bills presented today requiring Congressional approval would 
just add to the Congressional gridlock and delays we sought to avoid, 
and does not serve communities in need of immediate action. The people 
of Hampton are certainly grateful for the actions taken in the Senate 
and the House with the introduction of legislation for Fort Monroe. We 
are proud to have a united bipartisan front at all levels of our 
government for the action taken at Fort Monroe. And yet, even with the 
overwhelming support of the community and local and statewide elected 
leaders, we faced substantial roadblocks for a successful designation 
waiting for Congress to act. How many years or decades would we have to 
wait to learn the fate of Fort Monroe? On behalf of the City of 
Hampton, we are grateful that we don't have to wait to find out that 
answer.
Monuments are Good for Our Economy
    Due to the successful designation in 2011 we are now able to move 
forward in a permanent partnership with the National Park Service. A 
year ago the National Park Service began working on the first phase of 
planning for the management of the monument while the Fort Monroe 
Authority began our own Master Planning process to provide a mixed-use 
development alongside the historic components of the monument. Without 
the National Monument designation, this partnership for the stewardship 
of Fort Monroe would not have been possible.
    Since the Army's departure and the monument designation, we have 
seen a dramatic use in public use at the fort. The number of visitors 
for concerts, the beach club, the fishing areas, and historic tours in 
2012 well exceeded expectations. Since the designation, visitation to 
the Casemate museum has doubled. One-hundred and twenty homes have been 
rented and commercial spaces are being occupied by the Virginia State 
Police, the Virginia Fire Marshall and the Marine Services Corporation. 
The STEAM Academy has committed to establishing a new residential 
school for science, technology, engineering and math at Fort Monroe. In 
addition to the Fort Monroe Authority's work we know that the presence 
of a National Park within a community creates its own economic gravity. 
We don't have to look far from Hampton to see the economic benefits of 
heritage tourism at Colonial National Historic Park at Jamestown and 
Yorktown. Generally, the economic benefit of a national park in a 
gateway community has its own additional benefits including the 
following:

    <bullet>  Across the country, national parks support $13.3 billion 
of local private-sector economic activity and 267,000 private-sector 
jobs.
    <bullet>  A recent study commissioned by the National Parks 
Conservation Association found that every Federal dollar invested in 
national parks generates on average $4 in economic value to the region.
    <bullet>  In 2009, as the recession took its toll on Americans' 
pocketbooks, national park visitation increased by nearly 4 percent, 
demonstrating the enhanced value of our national parks in difficult 
economic times.

    The fact is that one of the reasons that many communities are 
supportive of public lands protection in general and national monument 
designations in particular, is because these designations provide 
communities with sustainable and tangible economic benefits. People 
across the country are demanding protection of deserving public lands, 
and the bills before this committee will result in those demands 
remaining unrealized.
Conclusion
    In closing, thank you again for the opportunity to be here today 
and express our views on the Antiquities Act of 1906. Without this law, 
the future of Fort Monroe would still be uncertain and the long-term 
future of Freedom's Fortress would be unknown even as we commemorate 
the 150th anniversary of the Civil War. Thanks to the Antiquities Act, 
the vision of a ``grand public space'' and the preservation of our 
country's diverse and rich history at Fort Monroe will be realized.
    It is also important to note that the people of Hampton were and 
remain completely unconcerned with how Fort Monroe was protected. It is 
of little interest to local restaurant operator or bed and breakfast 
owner whether Fort Monroe was ultimately protected by Congress or by 
the President. In the end, our community was just happy that it finally 
happened. In reality, many of my constituents likely are not unaware of 
the precise roles that the Congress or the President played in this 
designation, nor is it an important distinction. What my constituents 
do know, and are grateful for, is that Fort Monroe is now ``on the 
map'' as a world-class destination and it will draw people to our 
region, enrich our Nation's history, and give Hampton one more asset to 
attract business and investment. The designation of Fort Monroe was a 
positive experience for us and we are very proud to host the 396th unit 
of the National Park Service. Please come and visit our beautiful city 
on the sparkling waters of the Chesapeake Bay soon.
    I do not claim to be an expert about the details surrounding every 
previous use of the Antiquities Act. But I do know what the recent 
process was like for Fort Monroe, and I can testify on behalf of local 
elected officials and local business leaders from the other eight 
monuments created by this Administration who have likewise enjoyed 
similarly positive experiences around the designation of their 
monuments over the past couple of years. There is a real disconnect 
between the intent of these bills and the facts on the ground in 
communities like mine.
    I hope that our experience at Fort Monroe, and the experience of 
other communities throughout the Nation will help convince you that 
creating additional requirements or limits to the Antiquities Act could 
harm communities who cannot--and should not--wait a decade or longer 
for Congress to take action. Thank you.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate all three of you, with 
your testimony that you have given here.
    We will now turn to questions for this. Representative 
Lummis, do you have questions for any of these witnesses?
    Mrs. Lummis. Thank you, Mr. Chairman. I would like to ask 
our county officials--and I am really grateful that some county 
officials are here--what would be the effect, now that the 
technology exists to extract coal by taking vegetables like 
lettuce and tomatoes and making essentially what is tomato 
juice or V-8 juice, and you put it in the ground next to coal 
and some microbes, and the microbes eat the vegetables and then 
they eat the coal, and they convert it to methane gas, and then 
you produce the coal in the form of gas. And you can do it 
through directional drilling.
    So, we could retrieve that very coal resource, the energy 
that now is locked behind the American people's closed doors 
because of the Escalante Staircase, we could have extracted 
that in the form of methane, a clean-burning gas, gotten the 
energy out of that resource, done it without an open pit or 
even an underground mine. And all of the revenue that would 
have been generated, and all of the energy that could have been 
generated, and all of the clean-burning gas energy that could 
have come from that is lost.
    Now, what is the effect of that kind of new technology that 
didn't exist when the Escalante Staircase was locked up and 
locked away from the American people? What could that generate, 
in terms of jobs and income in a very, very rural area of your 
State?
    Mr. Jones. I guess that I would like to answer that by 
saying if we looked at Escalante, for instance, I would love to 
have the opportunity to utilize that kind of technology there 
and help those folks.
    We all have families and we all want our kids to come home 
and be able to work and survive, and that is just not available 
to those people. These jobs that you are discussing are going 
to bring $70,000, $80,000 a year in. The jobs down there at the 
local gas station, where people are passing through, minimum 
wage, $10 an hour. I think that there is a big difference.
    And then, to offset our energy needs across this Nation 
should be of utmost importance to this Congress, I would think, 
with the problems that we are having throughout our Nation. So, 
I would love to see that, and I think it would make a huge 
difference, not only in our ability to produce energy, but for 
the Nation, as a whole.
    Mrs. Lummis. Mr. Chairman, for any of our witnesses, what 
percentage of Federal ownership of a State is enough? Anyone?
    Mr. Eliason. I don't know. I don't know what percentage is 
enough. When does it stop? Utah is 66 percent. We feel that is 
plenty.
    Mrs. Lummis. I would like to ask our witness from Virginia. 
If Virginia was 66 percent owned by the Federal Government and 
off limits to economic activity, what would that do to jobs and 
the economy in Virginia?
    Ms. Ward. I am just here this morning, ma'am, to talk about 
the effect that the Fort Monroe National Monument designation 
has had on our community and how enormously positive it has 
been. Fifty-seven percent of the park is either under easement 
or ownership now, and we have seen increased economic activity 
and benefit to our community, as a result.
    Mrs. Lummis. Do you have an opinion about how much Federal 
ownership of land in a State is enough, versus too much?
    Ms. Ward. I am not an expert on what percentages of 
government the Federal Government should own of any State. I 
was just asked to testify here this morning about the 
Antiquities Act and how it affected our community, and what a 
positive impact it can have.
    Mrs. Lummis. Well, I appreciate your suggesting that you 
are not an expert. Nobody can answer this question from an 
expert perspective. But we can all ask it or answer it from 
just the perspective of an American. So, just as an American, 
what do you think is the appropriate percentage of ownership by 
the Federal Government of a State?
    Ms. Ward. Well, I happen to come from Hampton Roads, 
Virginia, which is entirely dependant upon the Federal 
Government for our economy. Hampton is home to the VA Medical 
Center, Langley Air Force Base, and NASA Langley, and Fort 
Monroe, and we are very grateful for the Federal Government's 
presence in our community, and so is the entire Hampton Roads 
region. In fact, I was up here with a group of leaders from all 
17 municipalities yesterday at the Pentagon, a bipartisan group 
of municipal leaders working to retain and grow our Federal 
assets in our communities. So I can only speak about my local 
issues, and we are very grateful for the Federal Government in 
our community.
    Mr. Bishop. Thank you. I have a question, though. Does it 
depend what vegetables you put by the coal? Because I really 
don't like beets or parsnips.
    Mrs. Lummis. No, Mr. Chairman. If you put the microbes down 
a hole, and then you feed them vegetables--literally, 
vegetables--they eat the vegetables, grow more microbes, and 
then the microbes eat the coal, and the coal produces gas, and 
then you produce the gas.
    Mr. Bishop. If you will take the parsnips and turnips, we 
have a deal working out here.
    Representative Grijalva, do you have questions for these 
witnesses?
    Mr. Grijalva. Thank you, Mr. Chairman. Mayor Ward, your 
testimony, you spoke about the urgency of now and the 
designation of Fort Monroe as a national monument. Do you 
believe that--or think that the same type of urgency applies to 
other landscapes in the West, with archeological resources that 
might be at risk?
    Ms. Ward. I can only imagine, Mr. Grijalva, that with as 
long as it takes to get through Congress to have a bill passed, 
that things are at risk. And in our case, the property was 
reverting from the United States Army to the Commonwealth of 
Virginia, and many things were in flux. So we really did have 
an emergency, and we didn't have 10 years to wait. So I imagine 
that other communities face those same sort of challenges.
    Mr. Grijalva. Thank you. Commissioner Jones, thank you for 
being here. And I understand you feel burned by the designation 
of the Grand Staircase-Escalante National Monument. Many of us 
who have been on this Committee understand the controversy that 
was involved in that designation. However, the solution that 
you and others are proposing is to require congressional 
approval. And, as I said in my opening statement, a number of 
bills were before this Committee and were blocked from either 
getting a hearing or being considered by the Full Committee.
    My question is, should we require that each of these bills 
that did not have a full hearing or a chance to be voted upon, 
that Congress must hold a hearing and a vote on every bill 
designated a monument?
    Mr. Jones. I believe--if you are asking my opinion of what 
I believe----
    Mr. Grijalva. Yes.
    Mr. Jones. I believe that NEPA should take place. I think 
that the people's voice should be heard. It is an unreasonable 
thing to lock up ground in somebody else's backyard. Most----
    Mr. Grijalva. Should they have a hearing or not? Or should 
they have a vote or not?
    Mr. Jones. Yes, I think they should be voted upon, and I 
think the voice of the people should be heard.
    Mr. Grijalva. OK. If I may again, Commissioner, a couple of 
quick questions and then I will try to move on.
    Commissioner Jones, I am confused about the history related 
to the designation of the Capitol Reef. It is my understanding 
that Senator Wallace Bennett supported the designation of the 
Capitol Reef. Is that the case in that particular one?
    Mr. Jones. I know that there were people who supported it 
and opposed it, but I don't believe that those people's voices 
were taken into consideration at the time that they made that 
designation. I know that ranchers lost grazing rights and so 
forth down there, and I believe that by grazing those lands it 
cuts down on our fire load, it cuts down on our carbon 
footprint, and I am a strong proponent of management so that we 
don't have those kinds of things.
    So I think that those things should have been taken into 
consideration. And again, NEPA should have been done. We should 
have taken a look at the economic effect. That wasn't done. 
Those things need to be taken into consideration for future 
planning.
    Mr. Grijalva. OK, thank you. Mr. Eliason, I'll ask you a 
kind of a similar question, because you raised the issue of Rio 
Grande del Norte. And, as you know, the Committee only got a 
hearing in this Subcommittee. And despite efforts to move the 
bill to markup, the refusal by the Majority to consider it. So 
what do you do in a case like that, or San Juan Islands? When 
the Majority flat refuses to move conservation measures, 
despite local support, what do you do in a case like that?
    Mr. Eliason. I am the same way, I think that it needs to 
have a NEPA study, just like anything else we do on public 
lands. If we change anything, we have to have a NEPA. It is 
important to see what the local input is, what the people that 
actually live and work around that county--it is very, very 
important that the local people have a say in what is happening 
to their lands.
    Mr. Grijalva. But as a particular piece of legislation that 
is before this Committee, should it or should it not receive a 
hearing and a vote by this Committee and the Congress?
    Mr. Eliason. I don't know if I am understanding what you 
are trying to say, but I think it needs to have a hearing, if 
that is what you are asking.
    Mr. Grijalva. Kind of. And you brought up NEPA, and thank 
you for that, last week, Mr. Andy Groseta testified on behalf 
of the Public Lands Council before this Committee, talking 
about the problems with the National Environmental Policy Act 
and NEPA and litigation.
    Among other things, as a representative of your 
organization, he stated, ``The planning process in use by the 
Federal agencies is woefully broken. Planning, study, and 
consulting, litigating, appealing, then planning and studying 
more for months and even years on end, isn't working and must 
be changed.'' He went on to say one of the major impediments to 
fish and management is the National Environmental Policy Act. 
Mr. Groseta continued by supporting legislation that 
drastically curtails the analysis, public input, in the process 
of forest projects. Today you are advocating that the NEPA 
process--advocating the NEPA process for monument designation. 
Why is it an obstacle in one situation, and in this case an 
asset?
    Mr. Bishop. Can you give your answer in, like, 30 seconds 
or less? We are over time. And--yes, we will have another 
round.
    Mr. Eliason. One of the big things is NEPA has such a 
backlog. I mean, to get anything done, we are way behind and it 
takes way, way too much time. And that is kind of the big, big 
thing with NEPA.
    It is cumbersome in a lot of ways. But in a lot of ways, in 
something like this, it needs to be done. And if I want to put 
a water project across the BLM, I have to have a NEPA. We all 
need it. Even though it is troublesome and that, it still needs 
to----
    Mr. Bishop. OK, thank you. I appreciate that. 
Representative Daines, do you have questions for this panel?
    Mr. Daines. Thank you, Mr. Chairman. And, Mayor Ward, I 
appreciate your comments, too, on the economic impact. And we 
have seen a positive impact on Little Big Horn Battlefield and 
Pompey's Pillar. These are 50-acre and 700-acre tracks. My 
concern is these large, sweeping hundreds of thousands of 
acres, even millions of acres, abuses that we have seen now 
from President Clinton and this leaked memo that came from 
President Obama.
    This might be for Commissioner Jones. From what I have 
heard and what you said, some of the challenges for the local 
counties is the economic impact of some of these monument 
designations, for better or for worse. Locking away lands for 
future use, grazing, mineral development, not only keeps future 
generations from having access to those job opportunities, or 
prevents ranches from staying in family ownership, but also 
local businesses like grocery stores or farm supply stores that 
support these industries.
    Another side effect that may be unrealized to many is when 
ranchers move away from small towns in Montana, the local 
counties lose their much-needed volunteers for the fire 
department, members of school boards, and other community 
organizations. So there is a documentary that Montana PBS put 
together several years ago called ``Class C: The Only Game in 
Town.'' It is about our dying small towns' Class C basketball, 
the story of some girls' basketball teams from beginning to the 
end of the season. But the real story is these dying Montana 
communities, because people are moving away for lack of 
opportunity.
    What we find in our State, in Montana, is the community, 
not just the land, creates the value of the resource. Better 
jobs mean children get to stay home in their home State, 
because they can get a good job there in Montana.
    It is clear to my counties in Montana--in fact, one of my 
county commissioners from Phillips County, Leslie Robinson, she 
also serves as the Chair of Montana Association of Counties 
Public Lands, and the Vice Chair of a Public Lands Committee, 
she said this, and I quote, ``Too often the executive branch 
has abandoned the original intent of the Antiquities Act by 
threatening to unilaterally set aside lands without allowing 
Montanans to have a voice in such decisions. To truly be 
successful, any effort has to have local support, and has to be 
driven by the local communities that are impacted by it. 
Decisions can't be driven from the top down.''
    Mr. Jones, could you expand a bit more on what a unilateral 
designation impact has had on your county?
    Mr. Jones. On my county?
    Mr. Daines. Yes.
    Mr. Jones. I guess the one impact that comes to mind is 
when President Clinton signed an executive memorandum for 
Roadless Forest. It was October the 13th, 1999. Looking at that 
executive memorandum, we have to go back now and declare what 
was the damage that has been done. At that time we had two 
working saw mills and about 160 jobs in my county that was 
supported from those forest lands. Today those saw mills have 
been sold off. At that time those horse lands were pristine. 
They were green and beautiful. Today they are dead.
    Last year we burned 49,000 acres between Carbon and Emory 
County. Those are jobs that could have still been secure today. 
That carbon footprint that we received from that forest land 
could have been annihilated and we could have used the lumber 
and maybe biomassed some of that timber that has gone to waste 
for future energy. Instead, we are taking that carbon footprint 
on. So, one man's signature changed our lives completely in the 
forestry area.
    That is the same thing that happens when we have one man's 
signature that locks up land for eternity without the NEPA 
process. We have no value, we don't understand what the future 
is going to be, and we don't know what we are losing. It is 
just, ``I have got an idea, I think I would like to preserve 
this as it is forever.''
    What is the coal worth in Escalante? Two billion dollars in 
royalty fees, but how many families could have worked there, 
200, 300 miners? What would that have done for our energy 
corridor across this Nation? And it would have made a stable 
environment, not only for those miners, but the trickle-down 
effect, I believe, would be over 400 more jobs. That community 
would have been secure today, and not losing its schools. But 
Utah falls underneath a situation to where we are governed by 
the Federal Government because of the amount of Federal land in 
our State, and our schools suffer because of that, because we 
can't build those tax bases.
    Mr. Daines. Thank you, Mr. Jones. Mr. Eliason--and thank 
you for wearing your hat today, I feel right back at home. And 
I thank you for your testimony today. And please know that many 
of the ranchers in Montana share your concerns.
    I am interested in the effect of land designations in your 
day-to-day operations. Could you describe the effect of 
management of your ranch, due to the national monument 
designation? How do you think it might affect water management, 
fencing, feeding, or haying?
    Mr. Eliason. It greatly affects it. I have a friend that 
was a sheep operator down at Staircase Escalante. He had a 
sheep camp that he would pull into the area, and then his sheep 
would graze around it for a week, and then they would move it 
further. The owner would come in and resupply him, bring his 
pickup in, bring food and check on him. Now that same operator, 
they made him go to using a tent. His herders had to go in, 
they use tents. To resupply the camp they had to use pack 
trains that come in. After a few years he couldn't keep 
herders, he just had to give up.
    And that is the way it is with cattle. It's hard to 
maintain water developments, hard to maintain fences. And the 
regulations--it just becomes a different ball game, and it is 
very restrictive. Once it becomes a monument, those permits 
basically become almost worthless.
    Mr. Daines. Thanks, Mr. Eliason.
    Mr. Bishop. Thank you. I appreciate that. Mr. DeFazio, do 
you have questions?
    Mr. DeFazio. Yes, Mr. Chairman. Commissioner Jones, you 
just said something that I just would take some issue with. You 
said monuments are for eternity. Do you recognize the gentleman 
in the large portrait there in the middle of the wall?
    Mr. Jones. I don't recognize him.
    Mr. DeFazio. That is Jim Hansen, former Chairman of the 
Committee, from your State. And he was Chairman of the 
Committee after the designation of the monument. He never did, 
but he could have, introduce a bill to repeal the monument. I 
am not aware that anyone has ever repealed a monument, but they 
can be. It can be overridden by a future President, it can be 
overridden by the Congress.
    So, if something were done that was considered particularly 
egregious and enjoyed popular support, there would be recourse. 
They aren't for eternity. I mean even wilderness isn't for 
eternity. It is a statute passed by Congress. But a future 
Congress could overturn it. It is not constitutional. So, I 
would just take a bit of issue there.
    You know, Mr. Chairman, I had a very different experience 
with the Antiquities Act in Oregon, and I find some value in 
the Antiquities Act, which has been used--began with a 
Republican President and has been used by Presidents of both 
parties. I am not aware of--if there was some secret plan I 
haven't--don't know about by the Obama Administration, but I 
think there was very little controversy in the monuments they 
recently designated.
    And back during the Clinton era, Secretary Babbitt chose a 
particularly unique area of Oregon--not in my district; in Greg 
Walden's district in far southeast Oregon--the Steens 
Mountains. And he proposed that it become a national monument. 
And what we did in reaction to that was, instead of saying, 
``Heck no,'' is that the delegation got together, principally 
myself, Representative Walden, Senator Smith, with some 
participation by Senator Wyden and occasionally by 
Representative Blumenauer, and we had a series of meetings in 
my office.
    And we ultimately hammered out an agreement between all of 
us and Secretary Babbitt for this particularly unique area. And 
we sat in my office just across the street, the bells were 
ringing and I said, ``I am not going to any votes, and I hope, 
Greg, you are not going to votes. We are going to stay here, go 
through this section by section, we are going to figure this 
out,'' and we did. And I think that was what I would call an 
Oregon solution. We had something of extraordinarily unique 
national value, something very precious to Oregonians, but also 
an area which is important for other uses, grazing and others 
among them.
    So, we ended up with 170,000 acres of wilderness and 
428,000 acres of the Steens Mountain Cooperative Management and 
Protection Area. And it actually went through this Committee, 
it had hearings, and became law.
    So we have had a different experience. And I would suggest 
that maybe there is a different route here than just saying we 
are going to remove this tool from future Presidents is to be 
proactive when a President has an idea about a unique area or a 
monument. Try and bring in and accommodate the local interests 
as you move forward, and also protect the national interests.
    And I think, you know, that it would be--you know, to take 
away this tool, again, I haven't heard any controversy about 
the ones most recently designated by this President. He may 
have others pending that I am not aware of that are more 
controversial. So, you know, I would hope that we approach this 
in a way that recognizes there are two sides to this issue. 
Thank you, Mr. Chairman.
    Mr. Bishop. Thank you, I appreciate that. If you will give 
me permission, I would like to ask a few questions here.
    Commissioner Jones, what public process were elected 
officials involved in, in the creation of the Grand Staircase-
Escalante Monument?
    Mr. Jones. There was none. We----
    Mr. Bishop. When did----
    Mr. Jones. I actually found out about it the day after, 
but----
    Mr. Bishop. Wait, wait, wait. That is my next question.
    Mr. Jones. OK.
    Mr. Bishop. When did you find out about it?
    [Laughter.]
    Mr. Jones. I found out about it the day after. I read it in 
the paper. I don't believe that Utah was even informed at all. 
They went to another State, told the people they were doing it. 
We weren't involved. And that is why I said that it was kind 
of--you know, it is kind of a back-door deal.
    Mr. Bishop. Thank you. And thank you for representing the 
National Association of Counties here, as well.
    Mr. Eliason, what is the status of grazing in Grand 
Staircase?
    Mr. Eliason. Seriously decreased.
    Mr. Bishop. Did your organization have any input into the 
declaration?
    Mr. Eliason. Not a bit.
    Mr. Bishop. Prior to the designation, were public land 
users alerted there could be a change in their usage, due to 
the designation?
    Mr. Eliason. No.
    Mr. Bishop. So when did you first realize this happened?
    Mr. Eliason. After--shortly after it was announced.
    Mr. Bishop. Can you just give the Committee a couple of 
quick examples of Federal activities which you or members are 
engaged on the current Federal lands that require the NEPA 
process?
    Mr. Eliason. Everything we do, it seems like, on the 
national public lands, we have to do a--every 10 years we have 
to have a NEPA to renew our permits on grazing. If we are 
putting in a new development such as fences or troughs, we have 
to have new NEPAs done on it before----
    Mr. Bishop. Is there a requirement for size or acreage in--
before the NEPA will flip in on your actions?
    Mr. Eliason. No.
    Mr. Bishop. So whatever happens, happens.
    Mr. Eliason. Yes, that is right.
    Mr. Bishop. Mayor, I appreciate you being here and I am 
glad you had a good experience with the Antiquities Act. 
Obviously, that is not a universal experience that people have 
had. I understand Fort Monroe was BRAC'd, right?
    Ms. Ward. Yes, sir. That is correct.
    Mr. Bishop. So I think that is the first thing we need to 
remember, is if we are actually going to do another BRAC again, 
much of what is military usually ends up in some other form of 
a Federal inventory. So the Department of Defense may actually 
lose--lower their cost, but the taxpayer doesn't lower the 
cost, they still get to keep the property.
    When the proposal for the BRAC was there, was your city 
opposed to it?
    Ms. Ward. Oh, absolutely.
    Mr. Bishop. So what did you do about it?
    Ms. Ward. Well, I wasn't mayor at the time, but the city 
did attempt to lobby and prove that Fort Monroe was vital to 
our community and it was important to the Department of 
Defense's mission and the Army's mission.
    Mr. Bishop. And were you able to stop the process?
    Ms. Ward. No, sir.
    Mr. Bishop. So it still got BRAC'd.
    Ms. Ward. Yes, sir.
    Mr. Bishop. So let's make a scenario here. What would 
happen if the President had designated Fort Monroe--which, by 
the way, I have been to; it is a nice place--had designated 
Fort Monroe as a monument, but the public could only view the 
fort from a distance of 5 miles in order to preserve the site, 
the pristine nature of the site? There is some precedent in 
that kind of an experience. How would that work with your 
community?
    Ms. Ward. Well, sir, the community was involved from the 
very beginning.
    Mr. Bishop. No, no. If the President had done that, how 
would your community react to that?
    Ms. Ward. Well, I don't think it is fair to ask me to 
comment on something that didn't happen.
    Mr. Bishop. All right. So you wouldn't be opposed to that 
if it were to take place.
    Ms. Ward. No, sir. We had a very open and----
    Mr. Bishop. So if we had--and I know the process is open. 
It is unique to you. If we actually had a bill here to say you 
can't go within 5 miles of the site, would your community be OK 
with that?
    Ms. Ward. Actually, sir, the quality of the water and the 
beauty and the natural resources are so important and vital to 
the health of the Chesapeake Bay in our community, I actually 
think there are some people that would be in support of it just 
staying pristine and green.
    Mr. Bishop. All right. See, the issue here is that you all 
have some community input into it. Others did not. So we are 
not here trying to write legislation for what was good and keep 
that going, we are here to make sure that every process has 
that input before.
    I am sad that Representative DeFazio left, because he was 
wrong in what he said. The bills here do not remove a tool from 
the President, they try to reform a tool for the President, to 
make sure there is public involvement every time a President 
tries to create a national policy.
    What they did for Oregon was after the fact. It was nice, 
what they did in Oregon. But wouldn't it have been better if 
they had done that process before the designation, so that 
people in Oregon actually had that concept?
    You were one of the lucky ones, and I am happy for that. It 
is great. But other areas have not been lucky. And I think what 
the legislation before us today is trying to say is everybody 
should be forced to have a chance of doing it. Every agency of 
Government has to go through NEPA, as bad as the process is. 
Congress has to go through, every agency has to go through 
NEPA. It is wrong that only the President doesn't go through 
NEPA. And if the President engages the other elements before 
the process, then the President would have to do it. But if he 
does it in the dark, whether he had these meetings or not, if 
he does it in the dark, as he did in Grand Staircase-Escalante, 
he is limited--and the solicitor's report said the same thing 
he doesn't have to go through NEPA.
    What we are talking about is NEPA is the process that 
allows people to have a say everywhere. Not just in your 
community, but everywhere. And that is the right thing to do. I 
just went over 6 minutes, so I cut myself off.
    Representative Grijalva, do you have other questions?
    Mr. Grijalva. Yes. Commissioner Jones, you stated that the 
designation of the monument devastated the economies of Kane 
and Garfield Counties and the lifestyles of the people that 
live there are also negatively affected. We have businesses 
that have become national or international success stories as 
designations, in particular, we have a cookbook from one of 
them, Hell's Backbone Grill, a local business that has become, 
like I said, national, international designation. When you read 
the story about Blake Spalding and Jen Castle's journey as 
business people and community members, it seems that the 
community has come to embrace the monument and the tourism that 
it brings to the area. Your assessment about the destructive 
effect, do you think the Escalante Chamber of Commerce or the 
people of Boulder, Utah would agree that that devastation has 
occurred?
    Mr. Jones. I know that the commissioners would. I spent 
time with them last week. They told me that the school is in 
danger of closing because the communities are shrinking, that 
jobs there are in a lower pay scale than previously before, 
when mining and so forth was in the area. And so we have seen 
our wage sector has gone down, the schools shrinking, less 
jobs, your kids can't come back to your community and work, the 
jobs aren't available. Yes, I think that that is definitely a 
negative----
    Mr. Grijalva. But those----
    Mr. Jones [continuing]. And I think that, economically, the 
jobs that have been brought in by tourism pays 50 percent of 
what those other jobs paid.
    Mr. Grijalva. And so, the Chamber would echo your opinion, 
that it has been devastated?
    Mr. Jones. I believe that they would. I am positive that 
the Commission would, the county commissioners who oversee the 
county, understand taxation and the value of things that are 
happening in their area.
    Mr. Grijalva. You know, the NEPA process is required when 
Federal action might make a permanent change to a public 
resource. The national monument designation, as we learned, is 
not a permanent change. And what is permanent, I think in 
contrast--and you have mentioned, Commissioner, the economic 
impact as being a determinant--should be a key determinant in 
designation.
    So, what can be permanent, in contrast, is the destruction 
of wildlife habitat, what is permanent is the destruction of 
watersheds, the permanent destruction of historical and 
cultural resources that we would then go through a more public 
and detailed review process for Federal actions that would 
require analyzing this permanent loss of these resources. That 
makes perfect sense to me. Do you, following the scenario of 
the NEPA process, do you believe or do you feel that those 
items that I listed as possible permanent losses need to be 
factored in, as well?
    Mr. Jones. I think so. If I got your question right, I 
believe that the NEPA process is set up to tell you what 
damages are going to take place, and it gives us the 
opportunity to rectify those problems. It is not set up to 
determine which damages did take place. I think you are 
supposed to talk about the value, the economic value, and 
things like that. I mean whenever you talk about watersheds 
that are damaged, most of those small communities down through 
there----
    Mr. Grijalva. OK.
    Mr. Jones [continuing]. Were relying on those watersheds 
for water, and now they don't have access to them.
    Mr. Grijalva. I want to think that you are saying that the 
NEPA process is an important, integral part and that is why you 
support it as part of a designation, even though a designation, 
as we learned, is not a permanent action. And I listed those 
permanent actions that fall under NEPA that could have an 
adverse effect on all those sectors.
    And I think, as I said earlier, it is either an obstacle or 
an asset, NEPA. And in this case you describe it as an asset, 
Commissioner. Across the board, I would agree with you. But I 
don't think we can be selective as to when the NEPA process is 
an asset or when it is an obstacle. It is there for that point. 
And I support the NEPA process because it takes into account 
all those other factors, and just doesn't knee-jerk a 
particular need at a particular time. I yield back.
    Mr. Bishop. Thank you. And I thank you for supporting my 
bill with that. That is a really good thing on the NEPA 
process.
    [Laughter.]
    Mr. Grijalva. The subtlety that I used.
    Mr. Bishop. Representative McClintock, do you have 
questions for this panel?
    Mr. McClintock. Thank you, Mr. Chairman. I first learned of 
the National Antiquities Act of 1906 when I represented Modoc 
County, a very small, very impoverished, and very rural county 
at the extreme northeast corner of the State of California. 
They have suffered--despite being one of the most mineral-rich 
and resource-rich parts of our country, they have been 
strangled by Government restrictions to the point where their 
unemployment rate runs roughly twice the unemployment rate of 
the State of California, which, as you know, has the highest 
unemployment rate of any State in the country.
    With that, the Administration, at the beginning of its 
term, began talking loosely about declaring 3 million acres of 
Modoc County, totally off limits, as a national monument under 
the Antiquities Act of 1906. And we find, as I am sure you have 
discussed before my late arrival, was a measure adopted as an 
emergency power to protect small archeological sites from 
looting. To go from that to, just with a whim, setting off 3 
million acres of land off limits for all time is pretty much a 
stretch.
    I would just like to know what is the best way for these 
bills to put that genie back in the bottle? How is a government 
that is granted limited power to act in an emergency to protect 
an archeological site that is under imminent threat, how does 
that grow from that to just setting aside 3 million acres at 
whim?
    Mr. Jones. For me, I think that it is a misuse of that 
power. And that is why I believe that the people's voice should 
be heard. The people that have testified here today, most of 
them had public input involved in their process. They got to 
say, ``Hey, you know, I think this, or I think that.'' We never 
received that. I don't know if you did. But under the NEPA 
process, we would know the value of the land, what is on the 
land, how it is going to be managed, and those kind of things, 
in advance.
    I think that is important, that the people's voice says, 
``Hey, if we don't graze that land, we are going to have a fire 
load in the future''. I mean the State of Utah rates number 
four in AUMs in the Nation on Federal land. That is a very 
important part of our economy. When you lock lands up like 
Escalante, and it is so far across that your cattle lose weight 
before you get to your grazing area, it is not very usable if 
you can't ship your cattle in there.
    So, I think that is a misuse of the power, and I think the 
people's voice should be heard.
    Mr. McClintock. I fear that we are drifting far from that 
concept of a Nation of laws and not of men, and reversing that 
to becoming a Nation of men and not of laws. When the law says 
that the President has emergency authority to set aside land to 
protect against looting, to the point where he can just use 
that authority for 3 million acres to be set aside--I don't 
know how many are involved in the land grab that you are here 
about, but I suspect it is substantial--it seems to me we are 
in danger of becoming a lawless government, where whatever we 
say in the law, the President does what he wants.
    Mr. Jones. I support that attitude. I believe you are 
exactly right.
    Mr. McClintock. Mr. Chairman, you were on a roll. I would 
be happy to yield back the remaining time to you.
    Mr. Bishop. Thank you, I appreciate that. Let me just 
finish with a couple of quick questions here, and then we will 
be done. And once again, I appreciate you all being here.
    First of all, I appreciate some of the things you have 
said. Commissioner, you have talked about or have been asked 
about the economy that takes place, and recreation has a role 
and a function in helping to build economy. Can recreation 
simply replace the resource-based economy?
    Mr. Jones. No.
    Mr. Bishop. Do you get royalties from Black Diamond?
    Mr. Jones. No, we don't. The offset is huge. I mean you are 
just over minimum wage when you are talking about working in 
stores, and things like that. If you are working in a coal 
mine, you could probably make $80,000, $90,000 a year.
    Mr. Bishop. Yes.
    Mr. Jones. And so, if you are going to compare those two 
economies, that coal mine job supports a whole lot of those 
other jobs. You would have to have a huge tourism base to even 
support the jobs that would come from the coal mine.
    Mr. Bishop. Mr. Eliason, you also mentioned very briefly--
and we will just re-emphasize it one more time--what the 
impacts on adjacent lands from lack of Federal management 
should take place, especially with risks of wildfire.
    Mr. Eliason. That is the big thing, is the fire. And 
sometimes when the land is not grazed, the elk and the deer 
will actually move off those lands to go on to places where 
they are grazed. And so sometimes it has quite a big influx of 
wildlife.
    Mr. Bishop. Let me be patronizing here, and ask all of you 
three just the reaction to my particular bill, the concept is 
that it doesn't have to be either/or. You can easily create 
conservation and energy development if you go through the 
process ahead of time and plan for that, which I truly believe.
    I also realize that of the 660-plus million acres the 
Federal Government owns, 435, 450 of those, roughly, are 
already in some kind of conservation system. They cannot be 
developed. It is only about 38 million acres that actually are 
developable, that the Federal Government has in its inventory.
    The particular bill I have says if there is an emergency 
situation, the President can go ahead and use the Antiquities 
Act and designate something that is under 5,000 acres--5,000 
acres is the minimum to create wilderness. The President can go 
ahead and designate that at will, but within 3 years he must 
come to Congress to continue on. Anything over 5,000, the 
President has to use the NEPA process, which requires him to 
involve the public and the community in the planning process 
ahead of time, which obviously, using that NEPA process is what 
the Interior Department would do if they were to make the same 
kind of proposal.
    Can I just ask your reaction, going down the row, for that 
particular approach to it? Actually, you said it earlier, but 
would you say it again to make me feel good, Commissioner?
    Mr. Jones. I support you 100 percent on that. It is 
important that the people's voice is heard.
    Mr. Bishop. Mr. Eliason, who may be a relative?
    Mr. Eliason. Absolutely. We support you 100 percent.
    Mr. Bishop. Mayor Ward?
    Ms. Ward. Chairman Bishop, I believe, personally, that the 
Antiquities Act has worked for over 100 years, and that it is a 
vital tool in our toolbox, and I would hate to see it modified. 
And it was very important to my community and it worked in 
other communities, as well.
    Mr. Bishop. Mayor Ward, are you listening to any of the 
other testimony about Grand Staircase?
    Ms. Ward. Of course, sir.
    Mr. Bishop. And you can still say it has worked in every 
situation?
    Ms. Ward. I didn't say it worked in every situation. I 
think it works in many situations, and it certainly worked in 
ours.
    Mr. Bishop. So if we want it to work in every situation, 
should it not be required that the President, who right now can 
do anything in private, has to do it in an open process?
    Ms. Ward. Well, sir, I would just say I have not reviewed 
every national monument designation, and I am not familiar with 
the facts of every monument designation. I just know what we 
were put through, in terms of public process and public comment 
and community input, and that I saw the process work.
    Mr. Bishop. Great, and I am happy for you. It worked for 
you. But on the BRAC process it did not work for you. You 
opposed and you couldn't stop it. That is the difference. That 
is the difference in making a decision before public input and 
after public input. And as we have seen in other areas, not 
just in my State but in other States, this process has not 
worked, it has been abused. And I am sad to say it has been 
abused by Republican Presidents as well as has been abused by 
Democrat Presidents.
    This Antiquities Act was created in 1906, when there were 
almost no other environmental laws or other laws to which you 
could have used. You could, for example, have appealed to the 
Archeological and Resource Protection Act, the National 
Historic Preservation Act, the Native American Grave Protection 
and State Antiquities Act. All of those you could have used to 
try to create something positive in Fort Monroe, and none of 
those existed in 1906. NEPA, ESA, everything else did not exist 
in 1906. It has been 100 years. We have abuse of the system. It 
is time it was reformed.
    It is not an effort to remove the tool, it is simply to 
reform the tool to make sure that people have a chance to say 
what is going on and have input into the system, which flatly 
did not happen in Grand Staircase-Escalante, where they made 
the decision ahead of time. On the morning of the decision they 
were still calling the Governor of Utah and leading him on as 
if they were going to be talking about it. At 4 a.m. they asked 
for his input. At noon, they designated a monument without his 
input. That is the problem, and that is what we are trying to 
fix.
    I appreciate all of you for being here. I appreciate all of 
your testimony, those who have come here. There may be times 
where other Members have additional questions they maybe ask of 
you. We ask you to be prepared already to give us, within a 
relatively short period of time, a written response to any 
questions that may be given to you. The hearing record is going 
to be open for 10 days to receive any response or any questions 
or answers.
    I want you to know how much I do appreciate your 
willingness to come up here and give us your testimony and 
suffer the abuse of the Committee. It is very kind of you to do 
that. Hopefully we can move forward in some particular way.
    Mr. McClintock, unless you have anything else, I appreciate 
the Members of Congress who have been here and participated in 
our discussion today, as well as all the other bills.
    And with that, the gavel is up here and I can't reach it 
because my Kleenexes are in front of it. So the Subcommittee is 
adjourned.
    [Whereupon, at 12:15 p.m., the Subcommittee was adjourned.]

            [Additional Materials Submitted for the Record]

 Prepared Statement of the Honorable Matt Cartwright, a Representative 
               in Congress From the State of Pennsylvania
    Thank you, Chairman Bishop and Ranking Member Grijalva, for 
organizing this hearing. The Antiquities Act is an important tool and I 
am glad that this Subcommittee is shining a light on the process of 
protecting Federal lands.
    Under the Antiquities Act of 1906 the President is given the 
authority to declare Federal lands as a national monument. After this 
distinction, the lands are granted an additional layer of protection 
from development and mining. This privilege only applies to lands which 
are federally owned, and cannot be used to seize State or private 
lands.
    Unfortunately many of the bills before us today intend to add a 
barrier to the executive branch's ability to protect these under the 
Antiquities Act. H.R. 250 seeks to require an Act of Congress to 
designate a national monument, while H.R. 432, H.R. 758, H.R. 1434, 
H.R. 1439 and H.R. 1512 would require congressional authorization for 
such claims in an individual State. Finally H.R. 1459 would inadvisably 
and incorrectly apply the NEPA process to the Antiquities Act and 
unnecessarily delay the protection of lands.
    The proclamation of lands as national monuments is a basic 
Presidential power which has existed for over a century. All but three 
Presidents since Teddy Roosevelt have declared national monuments.
    The fact is that partisan gridlock in Washington has inhibited our 
effectiveness and we are not protecting our Federal lands. Getting a 
piece of legislation through both Chambers of Congress is a tough task 
even in the best of times, and we cannot afford to wait on Congress to 
act to protect our most important resources.
    The 112th Congress, and thus far the 113th, are the poster children 
for Congress's inability to protect these lands. Not a single acre of 
land was protected by these Congresses. The new national monuments that 
President Obama has protected through the Antiquities Act all were 
bills introduced last Congress, and none of them were passed, with this 
Committee refusing to even hold a hearing on one of the proposals.
    There will be serious economic consequences if the Federal 
Government's ability to efficiently designate national monuments is 
impaired as these bills before us attempt to do. Studies have shown 
that local economies experience either continued or expanded growth 
following the designation of a national monument, and there has not 
been a recorded instance where an economy regressed.
    Additionally, examples in Utah, Idaho, Montana and New Mexico 
illustrate across the board increases in employment, personal income, 
and per capita income. However the bills today would limit the 
President's authority to protect lands in these States.
    The Antiquities Act gives the President an important authority to 
protect our national treasures quickly and effectively. Congress, or a 
future President, can easily undo the designation at any point. What 
often cannot be undone is the development and destruction that can 
occur if the lands are not protected. The bills before us today that 
seek to put up barriers to the utilization of the Antiquities Act undo 
over 100 years of a common and bipartisan practice and take our country 
in the wrong direction.
    Thank you Mr. Chairman.
                                 ______
                                 
 Prepared Statement of The Honorable Pete P. Gallego, a Representative 
                  in Congress From the State of Texas
  h.r. 885.--to expand the boundary of san antonio missions national 
historical park, to conduct a study of potential land acquisitions, and 
                           for other purposes
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Committee:

    Good morning and thank you for the opportunity to speak in support 
of H.R. 885, the San Antonio Missions National Historical Park Boundary 
Expansion Act of 2013. I am pleased that the Committee is considering 
this bill and I encourage passage when brought for consideration to the 
U.S. House of Representatives Floor.
    This bill will expand the boundary of the San Antonio Mission 
National Historical Park, including the Espada Mission within the 23rd 
Congressional District of Texas, and conduct studies for redevelopment 
on the south side of San Antonio, Texas in the future.
Historical Value of San Antonio Missions
    The missions began in the early 1700s, decades before America 
claimed its independence from the Crown. The community has come 
together to preserve history and significance to the region. We can 
enhance the opportunities to protect key areas, preserve the historical 
significance, and cultivate the Missions by expanding the boundary.
    The San Antonio River, which meanders through the city, is the link 
between the missions. The Espada Mission, which serves as a book-end to 
the 23rd Congressional District of Texas area, is one of the last 
pieces, extending out to the furthest mission. The community--including 
key stakeholders and Representatives from both sides of the aisle--have 
come together to acquire this piece of land that they wish to give over 
the National Park Service, to complete the trail between the missions.
    Mission Espada, is arguably the most historically significant of 
the missions. It was originally established in 1690 as San Francisco de 
los Tejas. It moved it its current location and changed its name in 
1731 to Mission San Francisco de la Espada. A Friary was built in 1745 
and by 1756 the mission was completed to how we know it today. 
Additionally, it maintains the aesthetics it had centuries ago. It is 
the only San Antonio mission where bricks and tiles were made on site.
    In addition, it has a history similar to that of the Alamo. Mission 
Espada survived a fire and Comanche raid in 1826 that destroyed most of 
the buildings, livestock, and cornfields.
    The historical value of the Missions is important. Enacting this 
legislation is vital to help complete the world famous San Antonio 
Mission Trail. The missions of San Antonio individually are marvels of 
history and considered true treasures to the community and me. The 
missions are inextricably tied to the rich culture of our community, 
and after many years, families still regularly congregate there. 
Together, in San Antonio, the four missions that are all within several 
miles of each other create a rare instance where manmade structures 
have withstood the test of time.
Economical Value of San Antonio Missions
    Additionally, the entire San Antonio Mission trail is an example of 
public and private cooperation. The Park Service could not operate 
without the contributions of time and money from the local community. 
On the same token, the community needs the knowledge and resources the 
National Park Service can provide to preserve these community 
treasures.
    Adding to its value is its location. The mission is tucked away in 
an area of the city that could use developments and increased tourism 
to add economic value. With already more than 1.2 million people who 
visit the mission trail, we can increase this number to ensure its 
preservations.
    I strongly ask for your support of this bill. As the Representative 
for Espada Missions and as a personal fan of the missions and history 
in general, I believe the National Park Service and the community of 
San Antonio will benefit historically and economically with passage of 
this bill.
    If I can be of any further assistance, please don't hesitate to 
ask. Thank you.
                                 ______
                                 
        Prepare Statement of the U.S. Department of the Interior
    concerning eight bills to amend the act popularly known as the 
                        antiquities act of 1906.
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the views of the Administration on eight bills--
H.R. 250, H.R. 382, H.R. 432, H.R. 758, H.R. 1434, H.R. 1439, H.R. 1459 
and H.R. 1512--to amend the Act popularly known as the Antiquities Act 
of 1906 (``Antiquities Act'').
    The Administration strongly opposes these eight bills. The 
Antiquities Act has been used by Presidents of both parties for more 
than 100 years as an instrument to preserve and protect critical 
natural, historical, and scientific resources on Federal lands for 
future generations. The authority has contributed significantly to the 
strength of the National Park System and the protection of special 
qualities of other Federal lands-resources that constitute some of the 
most important elements of our Nation's heritage. These eight bills, 
which would limit the President's authority in various ways, would 
undermine this vital authority.
    In addition, the Administration notes that four of the eight bills 
were introduced within the last week. Such a short period of time 
between bill introduction and the hearing does not afford the 
Administration sufficient time to fully review the introduced bills. 
Our position is based on the assumption that the introduced versions of 
the bills are identical to the texts of the bills that were shared with 
the Department of the Interior prior to their introduction.
    Of the eight bills under consideration, H.R. 432, H.R. 758, H.R. 
1434, H.R. 1439, and H.R. 1512, would bar the use of the Antiquities 
Act to extend or establish new national monuments in Nevada, Utah, 
Montana, Idaho, and New Mexico, respectively, unless authorized by 
Congress. H.R. 250 would require Congressional approval for national 
monuments designated by the President and would be applicable to 
designations in any State. H.R. 382 would require the approval of a 
State legislature and Governor before the President could designate a 
national monument and would prohibit restrictions on public use of 
national monuments until there is a public review period and State 
approval of the monument.
    H.R. 1459 would make several changes in the Antiquities Act, 
including requiring the President to consider proposals for national 
monument designation subject to the procedural provisions of the 
National Environmental Policy Act of 1969 (NEPA), allow for 
designations of less than 5,000 acres to expire after 3 years unless 
enacted into law, and limit the President to one declaration per State 
during any 4-year term of office without an express Act of Congress. 
While land management agencies typically use the NEPA process in their 
development of management plans for new national monuments, this 
application of NEPA to a discretionary decision by the President would 
be unprecedented and extraordinary because the President is not a 
Federal agency.
    The use of the Antiquities Act was addressed in some of the 
listening sessions associated with the America's Great Outdoors 
initiative in 2010, and the public voiced strong support for the 
designation of unique places on Federal land as national monuments. As 
a result of this public input, one of the recommendations of the 
America's Great Outdoors report, issued in February 2011, was to 
implement a transparent and open approach in the development and 
execution of new monument designations. The Administration supports 
conducting an open, public process that considers input from local, 
State, and national stakeholders before any sites are considered for 
designation as national monuments through the Antiquities Act. All 
national monument designations respect valid existing rights on Federal 
lands and any other relevant provisions of law. National Monument 
designations only apply to lands owned or controlled by the Federal 
Government.
    The Antiquities Act was the first U.S. law to provide general 
protection for objects of historic or scientific interest on Federal 
lands. In the last decades of the 19th Century, educators and 
scientists joined together in a movement to safeguard archeological 
sites on Federal lands, primarily in the West, that were endangered by 
haphazard digging and purposeful, commercial artifact looting. After a 
generation-long effort to pass such a law, President Theodore Roosevelt 
signed the Antiquities Act on June 8, 1906, thus establishing the first 
general legal protection of cultural and natural resources of historic 
or scientific interest.
    The Antiquities Act set an important precedent by asserting a broad 
public interest in the preservation of natural and cultural resources 
on Federal lands. The law provided much of the legal foundation for 
cultural preservation and natural resource conservation in the Nation. 
It created the basis for the Federal Government's current efforts to 
protect archeological sites from looting and vandalism.
    After signing the Antiquities Act into law, President Roosevelt 
used the Antiquities Act 18 times to establish national monuments. A 
number of those first monuments include what is now known as Grand 
Canyon National Park, Petrified Forest National Park, Chaco Culture 
National Historical Park, Lassen Volcanic National Park, Tumacacori 
National Historical Park, and Olympic National Park.
    Since President Roosevelt, 14 U.S. presidents have used the Act 
over 150 times to establish or expand national monuments. Congress has 
redesignated many of these national monuments as other types of 
national park units. Some of our most iconic national monuments 
established by Presidential proclamation include Devils Tower, Muir 
Woods, Statue of Liberty, and Acadia National Park. The National Park 
Service currently manages 78 national monuments. The Bureau of Land 
Management also administers 19 national monuments designated by 
Presidential proclamation, including Agua Fria in Arizona and Canyons 
of the Ancients in Colorado, which preserve significant archeological 
sites, and the Fish and Wildlife Service administers four national 
monuments.
    Most recently, on March 25, 2013, President Obama used the Act to 
issue proclamations that established five national monuments, three of 
which are now part of the National Park System: Charles Young Buffalo 
Soldiers National Monument (OH), First State National Monument (DE), 
Harriet Tubman Underground Railroad National Monument (MD). President 
Obama also used the Act to establish two monuments that will be managed 
by the Bureau of Land Management: Rio Grande del Norte National 
Monument (NM) and San Juan Islands National Monument (WA). In these 
cases, the Department engaged in discussions with national, State, 
local, and tribal stakeholders, and each monument enjoyed a broad 
spectrum of enthusiastic support.
    Without the President's authority under the Antiquities Act, it is 
unlikely that many of these special places would have been protected 
and preserved as quickly and as fully as they were. As Congress 
intended when it enacted the Antiquities Act, the statute provides the 
necessary flexibility to respond quickly to impending threats to 
resource protection, while striking an appropriate balance between 
legislative and executive decision making.
    The Antiquities Act has a proven track record of protecting-at 
critical moments-especially sensitive Federal lands and the unique 
cultural and natural resources they possess. These monuments have 
become universally revered symbols of America's beauty and legacy. 
Though some national monuments have been established amidst 
controversy, who among us today would dam the Grand Canyon, turn Muir 
Woods over to development, or deny the historic significance of Harriet 
Tubman's struggle against slavery? These sites are much cherished 
landscapes which help to define the American spirit. They speak 
eloquently to the wisdom of retaining the Antiquities Act is its 
current form.
    Mr. Chairman, thank you for the opportunity to present the views of 
the Administration.
   h.r. 885--san antonio missions national historical park boundary 
                         expansion act of 2013
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the views of the Administration on H.R. 885, to 
expand the boundary of San Antonio Missions National Historical Park 
(Park), to conduct a boundary study of potential land acquisitions, and 
for other purposes.
    The Department supports H.R. 885. While the Department supports the 
boundary study authorized by this legislation, we feel that priority 
should be given to the 31 previously authorized studies for potential 
units of the National Park System, potential new National Heritage 
Areas, and potential additions to the National Trails System and 
National Wild and Scenic Rivers System that have not yet been 
transmitted to Congress.
    H.R. 885 would amend Section 201 of Public Law 95-629 to direct the 
Secretary of the Interior (Secretary) to conduct a study of lands in 
Bexar and Wilson Counties to identify lands that would be suitable to 
include within the boundaries of San Antonio Missions National 
Historical Park (Park). The study would examine the natural, cultural, 
recreational, and scenic values and characteristics of the land. We 
estimate that this study will cost approximately $350,000.
    H.R. 885 would also expand the boundary of the Park by 
approximately 137 acres, all of which are currently being managed by 
the National Park Service (NPS). Of the 137 acres, 118 acres are either 
owned by the United States and managed by the NPS, or are being managed 
by the NPS under a cooperative agreement and are in the process of 
being donated to the Park. The remaining 19 acres are currently, and 
will continue to be, managed through a cooperative agreement with the 
land owners, the City of San Antonio and Bexar County, that protects 
the cultural landscape, ensures public access, and provides for greater 
interpretation of the historical and architectural values of the Park.
    The Park's authorizing legislation allows for the acquisition of 
new lands outside the Park boundary and allows the Park to enter into 
cooperative agreements to preserve historic properties and provide for 
visitor access and interpretation. However, the Park does not have 
authority to expand the Park boundary to include those lands, which is 
why this legislation is necessary. Because the park currently manages 
the 137 acres that would be included in the new boundary, H.R. 885 will 
not result in increased operational costs.
    The Park preserves a significant link to Mexico and Spain that has 
influenced the culture and history of the United States since before 
its inception. San Antonio, Texas, is now the seventh-largest, third-
fastest growing city in the United States. The city grew 68 percent 
between 1980 and 2007 and now almost entirely surrounds the Park with 
urban development, threatening areas that contain significant Spanish 
colonial resources historically associated with the Park. Based on the 
Park's General Management Plan and Land Protection Plan, which found 
that numerous areas containing significant Spanish colonial resources 
historically associated with the Park were outside the boundary, the 
Park acquired resources that now need to be included in the boundary.
    This legislation enjoys the support of officials from Bexar County, 
Wilson County, the City of San Antonio, the City of Floresville, the 
San Antonio River Authority, the San Antonio Conservation Society, Los 
Compadres, and others. It would help guarantee the preservation, 
protection, restoration, and interpretation of the missions for current 
and future generations.
    Mr. Chairman, thank you for the opportunity to present the views of 
the Administration.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
    The documents listed below have been retained in the 
Committee's official files.

        <bullet>  Alaska Wilderness League, American Cultural Resources 
        Association, American Forests, et al., Letter for the record 
        opposing any legislative effort to alter or weaken the 
        Antiquities Act.
        <bullet>  Americans for Responsible Recreational Access, 
        American Council of Snowmobile Associations, American 
        Motorcyclist Association, et al., Letter for the record against 
        the National Monument designation of certain public lands in 
        Utah.
        <bullet>  Americans for Responsible Recreational Access, 
        American Council of Snowmobile Associations, American 
        Motorcyclist Association, et al., Letter for the record 
        opposing a National Monument designation in New Mexico.
        <bullet>  Americans for Responsible Recreational Access, 
        American Council of Snowmobile Associations, American 
        Motorcyclist Association, et al., Letter for the record in 
        support of H.R. 250 (Chaffetz).
        <bullet>  Austin, Mark, Letter for the record regarding the 
        Antiquities Act.
        <bullet>  Lujan, Rep. Ben Ray, Letter to President Obama for 
        the record presenting the President with ``The Rio Grande del 
        Norte: One Hundred New Mexicans Speak for a Legacy,'' and 
        urging support for H.R. 1241.
        <bullet>  Lujan, Rep. Ben Ray, Letter to Rep. Bishop and Rep. 
        Grijalva for the record in support of protecting the Rio Grande 
        del Norte National Monument.
        <bullet>  National Parks Conservation Association, Letter for 
        the record opposing H.R. 250, H.R. 382, H.R. 432, H.R. 758, 
        H.R. 1512, H.R. 1434, H.R. 1439 and H.R. 1459.
        <bullet>  National Riparian Service Team, Letter from Steve 
        Smith dated 4/5/12, and the Grand Staircase-Ecalante National 
        Monument Situation Assessment Report Executive Summary dated 
        March 2012.
        <bullet>  Outdoor Alliance, Letter for the record highlighting 
        benefits of the Antiquities Act on recreation.
        <bullet>  Taylor, Duane, Director, Federal Affairs, Motorcycle 
        Industry Council, Letter for the record on behalf of the 
        Motorcycle Industry Council, Specialty Vehicle Institute of 
        America and Recreational Off-Highway Vehicle Association 
        against the designation of massive areas of public lands as 
        National Monuments.
        <bullet>  Utah Farm Bureau Federation, Letter submitted for the 
        record requesting the end of Presidential abuse of the 1906 
        Antiquities Act
        <bullet>  Whiting, Hon. Michael, Commissioner, Archuleta 
        County, Colorado, Letter for the record in support of the 
        Antiquities Act.
        <bullet>  Wilderness Society, Letter for the record opposing 
        H.R. 250, H.R. 382, H.R. 432, H.R. 758, H.R. 1512, H.R. 1434, 
        H.R. 1439 and H.R. 1459.

                                 <all>

</pre></body></html>
